<html>
<title> - YEMEN ON THE BRINK: IMPLICATIONS FOR U.S. POLICY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                          YEMEN ON THE BRINK:
                      IMPLICATIONS FOR U.S. POLICY

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2010

                               __________

                           Serial No. 111-81

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
54-939                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>Wexler leaves 1/4/
    10 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                Robert Marcus, Professional Staff Member
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Jeffrey D. Feltman, Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State (Former United 
  States Ambassador to Lebanon)..................................     4
The Honorable Robert F. Godec, Principal Deputy Coordinator for 
  Counterterrorism, Office of the Coordinator for 
  Counterterrorism, U.S. Department of State (Former United 
  States Ambassador to Tunisia)..................................     6
Christopher Boucek, Ph.D., Associate, Middle East Program, 
  Carnegie Endowment for International Peace.....................    38
Mr. Jonathan Schanzer, Vice President for Research, Foundation 
  for Defense of Democracies.....................................    57
Mr. Leslie Campbell, Senior Associate & Regional Director for the 
  Middle East and North Africa, The National Democratic Institute    67
Mr. Bruce Riedel, Senior Fellow, Saban Center for Middle East 
  Policy, The Brookings Institution..............................    74

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Jeffrey D. Feltman and the Honorable Robert F. 
  Godec: Prepared statement......................................     8
Christopher Boucek, Ph.D.: Prepared statement....................    41
Mr. Jonathan Schanzer: Prepared statement........................    59
Mr. Leslie Campbell: Prepared statement..........................    69
Mr. Bruce Riedel: Prepared statement.............................    77

                                APPENDIX

Hearing notice...................................................    92
Hearing minutes..................................................    94
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    96
The Honorable Ron Paul, a Representative in Congress from the 
  State of Texas: Prepared statement.............................    98
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................   100
The Honorable Mike Pence, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................   101
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................   103
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................   104
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................   106
Material submitted for the record by the Honorable Jim Costa, a 
  Representative in Congress from the State of California........   112
Questions submitted for the record by the Honorable Russ Carnahan 
  and responses from:
  The Honorable Jeffrey D. Feltman...............................   115
  Christopher Boucek, Ph.D.......................................   118
  Mr. Jonathan Schanzer..........................................   119
  Mr. Leslie Campbell............................................   120
  Mr. Bruce Riedel...............................................   122
Questions submitted for the record by the Honorable Michael T. 
  McCaul, a Representative in Congress from the State of Texas, 
  and responses from:
  The Honorable Jeffrey D. Feltman...............................   123
  Christopher Boucek, Ph.D.......................................   126
  Mr. Jonathan Schanzer..........................................   130
  Mr. Leslie Campbell............................................   133
  Mr. Bruce Riedel...............................................   135
Questions submitted for the record by the Honorable Barbara Lee, 
  a Representative in Congress from the State of California, and 
  responses from:
  The Honorable Jeffrey D. Feltman and the Honorable Robert F. 
    Godec........................................................   136
  Christopher Boucek, Ph.D.......................................   144
  Mr. Jonathan Schanzer..........................................   147
  Mr. Leslie Campbell............................................   151
  Mr. Bruce Riedel...............................................   154


            YEMEN ON THE BRINK: IMPLICATIONS FOR U.S. POLICY

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2010,

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in room 
2172, Rayburn House Office Building, Hon. Howard L. Berman 
presiding.
    Chairman Berman. The committee will come to order. In a 
moment I will recognize myself and the ranking member for 7 
minutes each for purposes of making an opening statement. 
Without objection, all of the members may submit opening 
statements or additional materials for the record. Before we 
get to the statements, let me take a moment to inform my 
colleagues about some upcoming committee hearings and other 
events. We are still trying to deal with next week's hearing 
and the administration's ability to testify at a Haiti hearing 
versus all the other things they have to do in terms of Haiti, 
but on Wednesday, February 24, the committee will host members 
of the Russian Duma Foreign Affairs Committee for a series of 
meetings on key issues, including Iran, regional conflicts, 
arms control, trade and energy.
    The following day we will welcome Secretary of State 
Clinton for her annual testimony on the international affairs 
budget. That will be February 25. In the near future, we are 
hoping to hold hearings on a number of other topics, including 
the upcoming nonproliferation treaty review conference, export 
controls and foreign assistance reform. Now, I will yield to 
myself.
    With so many pressing issues in the Middle East, the 
country of Yemen has received relatively little public 
attention since the October 2000 bombing of the USS Cole, but 
all that has changed in the last 3 months.
    On November 5, 2009, 12 brave soldiers and one Army 
civilian were brutally gunned down at Fort Hood, Texas, by an 
Army psychiatrist with links to a radical Yemeni-American 
cleric. On Christmas Day, a young, Nigerian man who had plotted 
with al-Qaeda operatives in Yemen tried to bring down Northwest 
Airlines Flight 253. Even before these heinous acts, the Obama 
administration recognized that Yemen should be a much higher 
priority and took steps to more than double U.S. economic and 
military assistance to that country.
    Today's hearing will focus on the numerous challenges that 
endanger Yemen's domestic stability and regional security. 
These include the presence of al-Qaeda in the Arabian 
Peninsula, religious and tribal conflict, separatist movements, 
dwindling natural resources and a failing economy.
    I am going to try to abbreviate part of my opening 
statement because we do have two panels today.
    Yemen is rich in culture, history and geographic beauty, 
but it is also the poorest country in the Arab world. Yemen's 
oil, which provides the government with 75 percent of its 
income, is quickly running out. An even more precious liquid, 
water, is also quickly running out. Yemen could, in fact, 
become the first nation ever to exhaust its freshwater 
supplies.
    Then there is the pervasive use of qat, a narcotic plant 
that produces feelings of euphoria and stimulation, but 
ultimately undermines individual initiative. Sort of like being 
in Congress. The overwhelming majority of Yemeni males are 
known to chew qat, and for many, it is a daily habit. Qat 
production may use as much as 40 percent of water resources 
consumed by local agriculture.
    The most immediate threats to Yemen's stability are the 
ongoing civil war against Houthi rebels in the north, a 
rejuvenated secessionist movement in the south, and a resurgent 
al-Qaeda. The Houthi rebellion, which began in 2004, spilled 
across the border and has engaged Saudi Arabia's military 
forces since November.
    The more unstable Yemen becomes, the more likely it is that 
terrorism will thrive there, threatening U.S. regional 
interests and our homeland.
    After years of tepid bilateral relations, now is the time 
for the United States to engage Yemen comprehensively. 
President Obama is working with the Yemeni Government and 
others to aggressively pursue terrorists. But a policy of 
counterterrorism in isolation will not suffice. Yemen's 
deteriorating security is intimately linked to a host of 
political, economic and social problems. This hearing provides 
an opportunity to ask some key questions: How important is 
Yemen's stability to U.S. interests and U.S. security? Is Yemen 
on the brink of becoming another ``failed state''? And, what, 
if anything, can the United States do to tip the balance in the 
right direction?
    To help us answer these questions, we have two panels of 
distinguished witnesses whom I will introduce shortly. Before I 
do, let me turn to the ranking member, Ileana Ros-Lehtinen, for 
any opening remarks that she would like to make.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, as 
always. Thank you for holding this hearing, and thank you for 
agreeing to the minority's request that we have a government 
panel and invite administration witnesses to address the 
critical issue of U.S. policy toward Yemen. I would note that 
U.S. participation in last week's Yemen conference in London 
and would be interested in hearing about the outcome of that 
important conference. We also look forward to receiving more 
detailed information on the overall strategy to address the 
challenges in Yemen and other jihadists as a basis, and 
framework for such a strategy was provided by the Congress 
through the terrorist sanctuaries provisions of the 
Intelligence Reform and Terrorism Prevention Act of 2004.
    This provision focuses on situations involving a government 
that either expressly consents to the use of its territory to 
be used by jihadists, or, with knowledge, allows, tolerates or 
disregards such use of its territory by jihadists and other 
global extremist groups. While Yemen may not yet meet that 
threshold, it is, unfortunately, coming dangerously close. It 
is no accident that al-Qaeda found a home in Yemen akin to 
Afghanistan and Pakistan. The central government does not 
control the tribal areas of Yemen, its borders, or, in some 
cases, its population centers. Like other countries in the 
region, a small group controls most of Yemen's wealth, which 
relies on oil revenues.
    However, Yemen's oil revenues are rapidly diminishing, 
compromising the ability of that small group to buy off tribal 
and commercial interests there. Like Saudi Arabia in 2003, 
Yemen hosts many radical clerics who promote jihad. A 
substantial separatist undercurrent has also emerged in the 
wave of demonstrations sweeping southern provinces from 2007 
through 2009. As protestors and government escalate in both 
violence and rhetoric, the southern movement has become 
increasingly isolated from northern society, threatening 
further instability. These risks will increase as oil 
production continues to fall, as revenues from oil sales 
provide the foundation for the patronage system holding the 
country together.
    As the chairman pointed out, the ongoing Houthi rebellion 
has again flared, with Yemenis accusing Iran of interference. 
The potential for this to spiral out of control cannot be 
understated or underestimated. Combined with additional local 
conflicts, many fear that Yemen will continue to dissolve into 
semiautonomous regions amid various insurgencies which 
reinforce each other. The U.S. and other leading aid donors and 
the World Bank have provided significant direct development aid 
to Yemen over the past decade, over $300 million in Fiscal Year 
2008 alone. Other donors have provided additional assistance, 
but throwing more money at the problem has not improved the 
situation.
    The United States has also increased military and 
intelligence support to the weak Yemeni Government and its 
leader over the past several months as al-Qaeda in the Arabian 
Peninsula has grown bolder. For years, Yemen has established a 
pattern of appeasement with al-Qaeda elements and has refused 
to keep wanted al-Qaeda operatives and associates jailed or to 
transfer them to the United States. Many of these militants 
initially protected the state from attack by al-Qaeda; however, 
according to U.S. intelligence officials, al-Qaeda is now 
targeting the Yemeni state, as well as U.S. and other foreign 
targets inside and outside Yemen. There is an interesting 
article in the L.A. Times by Greg Miller entitled ``Yemen 
Group: A Top U.S. Worry.''
    He says Director of National Intelligence Dennis C. Blair 
told a Senate panel that American spy agencies have intensified 
surveillance of the al-Qaeda affiliates' operations and made 
concerns that the group once considered a regional menace is 
focused on the recruitment of Westerners and other individuals 
with access to the U.S. homeland. In light of these 
developments, I would ask our administration panel: Has the 
Government of Yemen changed its strategic calculus, its mindset 
about al-Qaeda and other jihadists? Do we now have a true 
partner in fighting this threat? There have been numerous 
reports of Afghan and Pakistan Arabs returning to Yemen, 
penetrating political, security, tribal and religious 
institutions.
    Former Guantanamo detainees released by the United States 
pepper the high-level and mid-level ranks of al-Qaeda in the 
Arabian Peninsula and constitute elements of its operations in 
Yemen and beyond. Last month, after bipartisan pressure, the 
Obama administration agreed to stop returning detainees to 
Yemen; however, this is far too little. We need a coherent 
policy and a strategy now before Yemen deteriorates to the 
point of no return and is further used as a launching pad or a 
staging ground for attacks against our nation and our interests 
abroad. Thank you, again, Mr. Chairman, for the time and the 
hearing.<greek-l>
    [The information referred to follows:]
    ********** COMMITTEE INSERT ********** deg.
    Chairman Berman. Thank you. Now, to introduce our first 
panel. Ambassador Jeffrey Feltman is the assistant secretary of 
state for near eastern affairs. A career member of the Foreign 
Service since 1986, Ambassador Feltman previously served as 
principal deputy assistant secretary in the Bureau of Near 
Eastern Affairs, and before that, as U.S. Ambassador to 
Lebanon. Prior to his assignment in Lebanon, he headed the 
Coalition Provisional Authority's Office in the Erbil Province 
of Iraq. Ambassador Robert Godec is the principal deputy 
coordinator for counterterrorism in the Department of State. 
From 2006 to 2009, Ambassador Godec served as U.S. Ambassador 
to Tunisia. He has also served as deputy assistant secretary in 
the Bureau of Near Eastern Affairs and was deputy coordinator 
for the transition in Iraq. Secretary Feltman, we look forward 
to your testimony.

   STATEMENT OF THE HONORABLE JEFFREY D. FELTMAN, ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
       STATE (FORMER UNITED STATES AMBASSADOR TO LEBANON)

    Ambassador Feltman. Chairman Berman, Ranking Member Ros-
Lehtinen, members of the committee, thank you very, very much 
for holding this hearing and inviting Ambassador Godec and me 
to appear before you today. We look forward to working with 
this committee in efforts to address the many challenges Yemen 
faces that were outlined by the chairman and the ranking 
member's opening statements. We would like to submit a 
lengthier testimony for the record in which we will detail some 
of these challenges.
    Chairman Berman. Your entire testimony will be included in 
the record.
    Ambassador Feltman. Last week I was in London at the 
meeting that Ranking Member Ros-Lehtinen mentioned with 
Secretary Clinton. This meeting focused on many of the issues 
and challenges that we will be discussing today. The United 
States, the United Kingdom, our Arab partners in the Gulf, the 
Yemeni Government and other international partners reaffirmed 
our shared goal of a peaceful, prosperous and united Yemen. The 
meeting also marked the launch of a process, a process that 
will continue to coordinate international efforts concerning 
Yemen in the future. I would like to make four points in the 
opening statement and then look forward to answering any 
questions that the committee may have.
    The first point, as Chairman Berman said, is that Yemen has 
been a top U.S. foreign policy priority since this 
administration took office 1 year ago. Given the gravity and 
the complexity of the situation in Yemen, the Obama 
administration launched a full-scale policy review shortly 
after coming into office recognizing the increasing importance 
of dealing with Yemen in strategic, not just tactical, terms. 
The resulting strategy is twofold: Bolstering and supporting 
Yemen on the security side, and promoting good governance and 
development on the socio-economic and governance side. We 
believe that focusing on one dimension at the exclusion of the 
other is simply not going to work.
    The attempted terrorist attack on Christmas Day served as a 
wake up call to some regarding the apparent growing capability 
of al-Qaeda affiliates in Yemen to carry out attacks beyond the 
Middle East, but it confirmed what many of us have known for 
years: Militant extremists in Yemen are able to operate in the 
unsettled environment there, and they threaten U.S. national 
security as well as Yemen interests and the interests of key 
allies. With the support of this committee and Congress we have 
been steadily ramping up security development assistance since 
Fiscal Year 2008.
    Recognizing the toxic effect of deteriorating governance, 
and human rights protections and stagnant development, the 
United States Government has developed an assistance strategy 
that will take aim at Yemen's social and economic challenges. 
The second point I would like to emphasize is that we are not 
alone in engaging Yemen to improve the situation there. The 
international community, and particularly Yemen's neighbor 
states, is well aware that it must help Yemen address its 
security and economic challenges both in the short and the long 
term, and I think that the London meeting illustrated that 
commitment. We will continue to coordinate closely with other 
countries to work with the Government of Yemen to bolster its 
ability to deliver services to its people, to fight corruption 
and to confront the threat posed by al-Qaeda and other violent 
extremists.
    Third, just picking up on some points that Ranking Member 
Ros-Lehtinen said, we are realistic about the capabilities of 
our Yemeni partner. The Government of Yemen is beset by many, 
many challenges, including unrest in the south of the country 
and a violent conflict in parts of the north. The government's 
ability to provide services and exercise its authority is 
inconsistent over different parts of its territory. Its track 
record on human rights, on governance, and on anticorruption 
also has been wanting and is in need of intense focus and 
attention. In terms of the Government of Yemen's determination 
and willingness to confront the threat of al-Qaeda-related 
militants in the country, we should be, and, in fact, we are, 
encouraged by recent steps that the government has taken.
    Our partnership and support for Yemen's counterterrorism 
measures is not an endorsement of all the government's 
policies. In fact, we are supporting government reform efforts, 
education and training initiatives and an emerging civil 
society in order to promote better transparency in governance, 
better human rights protection and to ensure that the Yemeni 
people can participate in shaping and addressing national 
priorities. We will continue to seek improvements in all of 
these areas, even as we help the government take on al-Qaeda. 
Fourthly, finally, I would like to emphasize the importance of 
your support and the participation of all U.S. Government 
agencies in our pursuit of success in Yemen.
    As Secretary of State Clinton said recently, in states 
where the odds of succeeding may be long, ``the risks of doing 
nothing are far greater.'' In Yemen, the complexity of the 
economic, political and security situation truly require a 
whole of government approach to our policy. We cannot afford to 
neglect the experience, the resources or the leverage available 
across our Government. Thank you, and I look forward to your 
questions.
    Chairman Berman. Ambassador Godec?

 STATEMENT OF THE HONORABLE ROBERT F. GODEC, PRINCIPAL DEPUTY 
COORDINATOR FOR COUNTERTERRORISM, OFFICE OF THE COORDINATOR FOR 
   COUNTERTERRORISM, U.S. DEPARTMENT OF STATE (FORMER UNITED 
                 STATES AMBASSADOR TO TUNISIA)

    Ambassador Godec. Chairman Berman, Ranking Member Ros-
Lehtinen, distinguished members of the committee, thank you for 
the opportunity to appear today to discuss the challenge of 
Yemen, the threat of terrorism and the way ahead on U.S. 
policy. I join Assistant Secretary Feltman in asking that our 
joint written testimony be entered into the record.
    Chairman Berman. It is part of the record without 
objection.
    Ambassador Godec. I would like to build on my colleague's 
statement and make three points. First, the threat from al-
Qaeda in Yemen is not new, but it is clearly evolving. The 
presence of al-Qaeda in Yemen goes back to before the USS Cole 
attack in 2000 when al-Qaeda affiliates attempted to kill U.S. 
servicemen on their way to Somalia. The group has carried out a 
string of attacks on embassies, tourists and the security 
services in Yemen in the past couple of years. In August 2009, 
the newly established al-Qaeda in the Arabian Peninsula, AQAP, 
launched a failed attack against the chief of counterterrorism 
in Saudi Arabia, and, of course, AQAP has claimed credit for 
the attempt on December 25 by the Omar Farooq Abdulmutallab to 
bomb Northwest Flight 253.
    This was the first time that an al-Qaeda affiliate 
demonstrated the will and the capacity to attempt a strike on 
the continental United States. Second, well before December 25, 
the U.S. Government was engaged in Yemen, and specifically, 
this administration has focused on Yemen since day one. The two 
pronged strategy described by Assistant Secretary Feltman will 
help Yemen confront the immediate security threat posed by AQAP 
and will also address the serious longer term political and 
economic issues and challenges that drive extremism. This 
strategy requires full Yemeni partnership. It also requires 
close cooperation with regional partners and allies, and it 
requires hard work and American resources.
    The challenges are great and many, but the risk of doing 
nothing is grave. With support from Congress, U.S. security 
assistance to and engagement with our Yemeni partners has 
increased in recent years. The Departments of State and Defense 
provide training and assistance to Yemen's key counterterrorism 
units. Working with DOD, we currently give substantial Section 
1206 counterterrorism assistance to Yemen. Through our 
antiterrorism assistance program we provide training to Yemen 
security forces. We are currently consulting with the Yemeni 
Government and assessing Yemen's security requirements to 
identify opportunities to further strengthen Yemen's 
counterterrorism capacity.
    In the last year, senior administration officials have 
traveled to Yemen frequently: General Petraeus; Assistant to 
the President, John Brennan; Assistant Secretary Feltman; and, 
most recently, the coordinator for counterterrorism, Ambassador 
Dan Benjamin. All of them have stressed during their trips our 
deep concern about AQAP. Our engagement is paying off. 
President Saleh and the Yemeni Government have shown increased 
commitment to confront AQAP. In the past 2 months, Yemen has 
conducted multiple operations designed to disrupt AQAP's 
operational planning and deprive its leaders of safe haven. 
Yemen has significantly increased the pressure on AQAP. It has 
carried out air strikes and ground operations against senior 
al-Qaeda targets.
    While these security operations are essential, 
delegitimatizing AQAP also requires addressing Yemen's cycle of 
radicalization while we build Yemeni institutions. A key part 
of our work to disrupt, dismantle and defeat al-Qaeda in the 
Arabian Peninsula is to assist the Yemeni people to build 
strong institutions and forge a better future. Third, regional 
and international cooperation is fundamental to our security 
strategy. The threat of terrorism in Yemen is a common 
challenge. It is a problem that will require engagement with 
our partners, particularly those in the region. Secretary 
Clinton has said today's security threats cannot be addressed 
in isolation.
    Last week's London meeting, during with the international 
community reiterated its prior commitments to aid development 
and security, was a good start. Now we must follow-up to build 
on the momentum. Ultimately, the goal of U.S. and international 
efforts in Yemen must be a stable, secure and effectively 
governed country. It is the only road to success in our 
counterterrorism strategy. Toward this end, while we work with 
Yemeni security forces we will also assist the government and 
people to strengthen institutions, build infrastructure and 
deliver services. As the Government of Yemen grows more 
transparent and responsive and Yemenis find hope for their 
future, the seeds of extremism and violence will find less 
fertile ground and the threat of al-Qaeda in the Arabian 
Peninsula will truly recede. We look forward to continuing our 
work with Congress, and this committee specifically, as we 
refine and implement our strategy. I look forward, too, to your 
questions. Thank you.
    [The prepared statement of Ambassadors Feltman and Godec 
follows:]<greek-l>Feltman and Godec deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Well, thank you both very much. I will 
yield myself 5 minutes and begin the questioning. The ranking 
member closed her opening comments with the question do we have 
a partner in the Government of Yemen to confront and deal with 
al-Qaeda in the Arabian Peninsula? Now, you have talked about 
some signs of improvements, of growing commitment. I guess two 
questions. One, what are the things that could threaten that 
continued commitment? Are we at the point where we can call it 
a partnership? In Pakistan we have a sense these days that many 
different organizations, the Pakistan Taliban, the Afghanistan 
Taliban, Losher, Tiba, other groups that we consider terrorist 
groups, along with al-Qaeda, have this level of coordination 
they may not have had in earlier years. Is any of that taking 
place in Yemen? The Houthis in the north, the rebellious 
elements in the south, al-Qaeda in the Arabian Peninsula, is 
there any morphing of goals and tactics with any of these 
groups? So that is, I guess, my first two part question.
    Ambassador Feltman. Mr. Chairman, thank you. The Government 
of Yemen, let us be frank, has been an inconsistent partner in 
the past on many of these issues, both on the security side, as 
well as on the governance and development side. As both of our 
opening statements indicate, we have been encouraged by the 
determination that the Government of Yemen has shown in the 
last couple of months to take on the al-Qaeda threat. We were 
also encouraged by the determination the Government of Yemen 
showed at the London conference last week to tackle the 
development and governance challenges. We will stay engaged on 
all of these, mindful of the needs and mindful of the past.
    In terms of your question about what would threaten the 
Government of Yemen's determination to continue the fight with 
al-Qaeda, I will make a couple of comments. First, as some of 
your own statements noted, the Government of Yemen has been a 
victim of the al-Qaeda presence in Yemen. We believe that the 
Government of Yemen fully understands this 
threat<greek-l>, deg. and that helps explain the determination. 
The Houthis in their current north and the secessionists in the 
south are different from al-Qaeda in that we believe that these 
are mostly local grievances. This is mostly based on local 
politics, longstanding grievances in the south dating back to 
the time of unification, longstanding grievances in the north. 
This is different from al-Qaeda.
    Chairman Berman. But that is the way it started out in 
Pakistan, too.
    Ambassador Feltman. These conflicts have a risk of 
distracting the government from the al-Qaeda challenges, which 
is one of the reasons we have been calling for a cease fire. We 
are encouraged by the fact that the Saudis and the Houthis seem 
to be deescalating their own conflict, with the Houthis 
declaring a cease fire with Saudi Arabia. We want to see a 
cease fire in the north that leads to the type of political 
reconciliation that will address the grievances of the north 
and not make the Houthi conflict a distraction from the fight 
against al-Qaeda.
    Chairman Berman. Okay. Let me just interject there because 
I only have 1 more minute and I do want to get this question 
out there for an answer. The Yemeni Government, backed by the 
Saudis, has made numerous claims that the Iranian Government is 
militarily, financially and politically supporting the al-
Houthi rebellion in northern Yemen. Many observers dispute 
this. Is there evidence that Iran is materially supporting the 
Houthis? What influence does the Iranian Government have in 
Yemen?
    Ambassador Feltman. We think at heart, at base, this is a 
local conflict. These are local grievances. We have heard the 
accusations, we are aware of the threat, we certainly are aware 
of Iranian misbehavior in the region, places like Lebanon, 
Iraq, et cetera, but this is overwhelmingly a local issue, and 
we have called for outsiders not to interfere. Let us see this 
solved locally.
    Chairman Berman. Anything to add, Ambassador?
    Ambassador Godec. Mr. Chairman, I would just----
    Chairman Berman. I have 9 seconds.
    Ambassador Godec [continuing]. Say that I believe Assistant 
Secretary Feltman is exactly right in his remarks.
    Chairman Berman. Okay. My time has expired. The ranking 
member is recognized for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I wanted 
to ask the excellent panelists about the budget increases that 
have been presented. It was just recently released, the Fiscal 
Year 2011 budget, and it increases assistance to Yemen $106 
million, more than six times the $17 million that was spent in 
Fiscal Year 2008. Economic support funds are increasing almost 
sevenfold in just 1 year from $5 million in Fiscal Year 2010 to 
$34 million for Fiscal Year 2011. So I wanted to ask about 
those numbers. First of all, can that be absorbed on the ground 
to accommodate such an increase in funding?
    Does the Embassy have the ability to project its presence 
on the ground to implement this funding and this programming 
effectively? Also, how does the Yemeni Government itself have 
the ability to absorb all of this increase? Related to that, 
what are the performance metrics? How do we judge success and 
how we are doing with this funding and programming? Lastly, 
what conditions are we placing on U.S. assistance to the 
Government of Yemen, particularly regarding the implementation 
of its financial sector and economic reform program? So it is 
basically the budget, how it is going to be absorbed, how can 
we measure success of our funding, and what the Yemeni 
Government is doing.
    Ambassador Feltman. Ranking Member Ros-Lehtinen, thank you. 
I mean, I should say from the outset that there is no cash 
going to the Government of Yemen. I think we all understand 
that. This is technical assistance, this is support, these are 
helping get services delivered to the people at the local 
level, but this is not a question of transferring cash to the 
Government of Yemen. In September, USAID signed a new strategy, 
a 3-year strategy, with the Government of Yemen that has two 
pillars that get at some of the questions that you have asked. 
One pillar is called a communities' livelihood program, the 
other part is national governance program. It is getting at the 
capacity issues in both directions.
    For the first part, the community livelihoods initiative, 
it is building capacity at the local level, helping services 
get delivered at the local level: Health, education, youth 
employment. How do you organize civil society, support civil 
society so that they can engage with their local officials, and 
at the national level, building capacity on budget 
transparency, decentralization, issues like this? So we are 
working both locally and nationally in order to build capacity 
to help the Government of Yemen deliver services, create jobs, 
and create economic opportunities. It is definitely a challenge 
working in Yemen for security reasons, but USAID, U.S. State 
Department, other U.S. Government agencies now have quite a lot 
of experience in dealing in insecure environments and how you 
deliver, monitor, your assistance.
    In terms of conditionality, I want to go back to the London 
conference for 1 minute because this was a question that 
everyone had in London was conditionality and absorb to 
capacity. There were $5.2 billion committed to Yemen a few 
years ago at a Friends of Yemen conference hosted in London. 
Most of that was coming from the Gulf. Most of that hasn't been 
delivered. It hasn't been delivered because of questions of 
capacity, questions about conditionality. So the international 
community is working together to address these, sending a 
unified message to the Yemenis about what we expect in terms of 
transparency, in terms of responsiveness to real needs, in 
terms of delivering services across the country, and the 
unified message in terms of help and building the capacity of 
the government. So it is more than just the United States that 
are sending a message to the Yemenis about their need to 
deliver, it is all of us working together.
    Ms. Ros-Lehtinen. Thank you very much.
    Chairman Berman. The time of the gentlelady has expired. 
The chairman of the Middle East and South Asia Subcommittee, 
the gentleman from New York, Mr. Ackerman, is recognized for 5 
minutes.
    Mr. Ackerman. Thank you, Mr. Chairman. Wow! Well, first, 
you talk about the risk of doing nothing, and I couldn't agree 
with you more on that, but I think, as we all know, there is a 
risk of doing everything. It seems to me that we have been 
trying to do everything, everywhere, mostly by ourselves in a 
lot of instances, and we are starting to lack the resources, or 
the ability, or the will of the American people to do that, but 
you still can't do nothing. I think we should be looking at the 
problem of trying to do everything. This place, I don't know if 
I would call it looking like it is going to be a failed state. 
I don't know that they ever got to the real state status in 
order to become a failed state afterwards.
    I can't remember when. I mean, you know, you have got the 
Hatfields and the McCoys, you have got the Houthis and the 
whatevers, and you have the separatists, and you have al-Qaeda 
filtering or flooding in, depending on your perspective, and 
these people spend the afternoon getting away from reality by 
the whole country getting high and like, wow, we have got no 
problems, just, we are running out of gas, we are running out 
of water, we have no resources for ourselves, so let us forget 
about it. I think we have to look around in the neighborhood 
and try to figure out what we do to help, and, you know, there 
are the Saudis who are unrealistic about the whole thing to 
begin with, I think.
    Somebody has to tell our friends over there that they have 
to be part of the solution, the real solution, not just 
throwing some money into the thing. Maybe they should go into 
one of these airport machines and do a full body scan and 
figure out that this place next door is really a wart that is 
on their butt, and they better do something about it because it 
is starting to turn malignant. I understand you could even 
spread it through someone else's underwear. This thing is 
highly problematic. My question is, instead of looking, or in 
addition to looking for allies within the government in Yemen, 
why aren't we doing more looking for allies within Saudi Arabia 
and getting them to focus not just on throwing in
$1 billion and let us see what happens, but helping to provide 
some infrastructure, some technology, some help, some support 
to try to build the place because it seems to me they are a 
heck of a lot closer than we are, and you don't need one of 
these long flights to mess up Saudi Arabia.
    I think they really know that, but I don't think they are 
focused on real solutions. Do we have a partner there? Can we 
spend more time walking them through what they should be doing 
or how we could help them do what they know they should be 
doing?
    Ambassador Feltman. Congressman Ackerman, I don't have the 
felicitous terms or phrases that you do, but----
    Mr. Ackerman. Whatever that means, I take it as a 
compliment. Maybe you could provide an answer in whatever 
terms.
    Ambassador Feltman [continuing]. We agree with you. We 
agree with your basic point. The GCC countries, Saudi Arabia in 
particular, and the GCC as a whole, have vital interest in 
Yemen. They are the immediate neighbors of Yemen and they have 
faced the immediate threats that emanate from Yemen. You know, 
Ambassador Godec mentioned the August attempted assassination 
of Deputy Minister of Interior Prince Mohammed bin Nayef in 
Saudi Arabia. Saudi Arabia and the GCC have to be part of the 
solution. Part of the discussions at the meeting in London last 
week was how do we initiate a process? We don't want simply a 
meeting, we want a process of addressing the long and short 
term security, and development and governance challenges in 
Yemen.
    The GCC countries have stepped up as a response to London 
and said, okay, fine, we are going to have a meeting February 
27 and 28, the GCC meeting in Riyadh, to talk about Yemen in-
house with the Yemenis talking about Yemen. We see a new 
seriousness on the part of the GCC countries to work directly 
with the Yemenis on their own, and also to work with us in the 
international community.
    Mr. Ackerman. But the history of that seems to be just send 
them in some money and here you go, guys, fix your problem. It 
is hard to tell a patient, you know, here is $1 million, go 
cure yourself. I think we have to have a more serious bilateral 
discussion. with the Saudis in particular, others as well, but 
sit down in a room with the Saudis, my suggestion, and say, 
look, guys, here is what I think you really have to do. Not 
just put money in there, but you have to do A, B, C and D, to 
help build this place into a real place with some sense of 
leadership, with some sense of being able to build a state that 
can control themselves. They are living in a world of illusion 
over there.
    Ambassador Feltman. We agree with you on working with the 
Saudis 100 percent.
    Mr. Ackerman. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Arizona, Mr. Flake, is recognized for 5 minutes.
    Mr. Flake. I thank the chairman, and I thank the witnesses. 
I am sorry I wasn't here to hear your testimony. I have not had 
a chance to really go through it, so forgive me if you have 
gone through this already. We have known for, well, really 
since the Fort Hood shooting, and suspected before that, that 
there were problems there in Yemen. Can you tell me what the 
state is doing now that it wasn't doing before? Is it just a 
matter of intensity: We have got to build institutions faster, 
we have got to work for the government there, we have got to 
get the neighbors involved, or is it a complete change in 
focus? What is happening today that wasn't, you know, 6 months 
ago?
    Ambassador Feltman. Sorry to monopolize the hearing, Bob. 
In fact, the administration came into office last year and 
looked around the world and focused on Yemen as one of the 
priorities very early on in the administration, both in terms 
of development and governance challenges and in terms of the 
security challenges. There has been a series of meetings that 
Ambassador Godec and I and our bosses have attended since last 
year, a lot of meetings on Yemen, where we developed this two 
pronged strategy I was describing earlier addressing governance 
and development challenges, and addressing security challenges. 
What has happened since December 25, though, is we have the 
ability of really engaging the region and international 
partners.
    It was as a result of the December 25 attempted attack that 
led British Prime Minister Gordon Brown to issue the 
invitation, issue the call for the Yemen conference that I 
attended last week with Secretary Clinton. This is allowing us 
to coordinate our approach, coordinate our messages, get 
international support and basically use the international 
community and regional partners as increased leverage to 
address challenges in Yemen. So the December 25 attempted 
attack did not wake up the United States regarding the United 
States administration's challenges in Yemen, but it did allow 
us to use the international community in new ways.
    Mr. Flake. We have had a number of successful predator 
strikes in Yemen of terrorists over the past couple of years, 
is my understanding. How does that impact the work that the 
State Department does? Is it understood by the government? How 
much are those moves by the U.S. supported by the government 
there such as it is?
    Ambassador Godec. Congressman, I think I would just 
underscore that the United States is cooperating very closely 
with the Yemeni Government in a variety of ways on the fight on 
counterterrorism. They understand the contributions that we are 
making by way of training and assistance. They value it. I know 
they find it very important. We have been working very closely 
with them to address the threat, which they take now very 
seriously. I do think that recent developments, the actions of 
the government, have underscored just how seriously they take 
it and how they do intend to address this problem.
    Mr. Flake. So to the extent that there was push back from 
government, that is lessened now after recent activity, or was 
there no push back early on? Have they been cooperating all 
along?
    Ambassador Godec. I think it is fair to say that the 
cooperation across time has been uneven. There have been 
instances and times and places in the past where the 
cooperation is not everything that we hoped it would be. I do 
think that their recent actions, however, show on the part of 
President Saleh and the government a new commitment and a 
strong commitment to cooperate with us on counterterrorism.
    Mr. Flake. Thank you. I yield back.
    Chairman Berman. I thank the gentleman. His time has been 
yielded back. Now the gentlelady from California, Ms. Lee, is 
recognized for 5 minutes.
    Ms. Lee. Thanks very much, Mr. Chairman. Let me thank you 
both for being here. Just to reiterate the fact that the 
implications of this country's stability on U.S. policy in 
Yemen and the surrounding region in the larger context of our 
efforts to curb extremism around the globe, you all are really, 
I think, charting a new course in a new direction. The presence 
of al-Qaeda in Yemen and elsewhere in the Arabian Peninsula 
really further illustrates the difficulties, of course, that we 
will face in sustaining efforts to reduce extremism if the 
United States engages these challenges with military centric 
solutions.
    I can't help but wonder and want to ask you this question 
about any thoughts or discussion with regard to any 
authorization to use force against Yemen. Of course, we, you 
know, conducted military actions in Afghanistan and Iraq as 
part of our strategy. It is very similar now in terms of what 
is taking place in Yemen. I wanted to find out, I hope not, but 
has that been on the table for discussion? Secondly, I don't 
know if you mentioned the numbers of al-Qaeda members that we 
think are in Yemen versus Afghanistan to get a sense of, you 
know, where the real fight is. Thirdly, I would like to just 
ask about the increase in funding aimed at building Yemen's 
military and counterterrorism capacity, but also, the zeroing 
out of development assistance and what that means given our 
overall strategy in terms of what we are trying to do on the 
development front, which you have laid out.
    Ambassador Feltman. Representative Lee, first of all, the 
President has been clear, Admiral Mullen has been clear, 
General Petraeus has been clear, we are not talking about U.S. 
combat boots on the ground in Yemen. You know, we are not 
looking at a situation like in Iraq or Afghanistan, something 
like that. We are looking at supporting a new determination by 
the Government of Yemen to go after the al-Qaeda threat. We are 
providing support to the Government of Yemen in its own fight 
against al-Qaeda. That certainly is in our interest. On the 
number of al-Qaeda, you asked specifically, I will quote the 
Foreign Minister of Yemen. Foreign Minister Qirbi of Yemen has 
said that they estimate, the Yemenis estimate, 200 to 300. I 
don't have anything more to add on top of what Foreign Minister 
Qirbi would say in terms of numbers.
    Ms. Lee. Excuse me. Correct me if I am wrong, but there are 
fewer al-Qaeda members in Afghanistan than in Yemen?
    Ambassador Feltman. Since my writ ends at Iran, I will 
defer to Ambassador Godec.
    Ambassador Godec. I think that, you know, there are many 
al-Qaeda, unfortunately, around the world in a range of places. 
They do pose a threat. It is not always easy to get a precise 
handle on the exact number of al-Qaeda in any given location. 
They do obviously pose a real threat, whether it be in Yemen or 
Afghanistan.
    Ms. Lee. Okay. So we don't know the numbers in Afghanistan 
at this point or not?
    Ambassador Godec. Congresswoman, I would be happy to get 
back to you with an estimate on that, if you would like. We 
would be happy to take that back.
    Ms. Lee. Yes, I would like that. Okay. Thank you.
    Ambassador Feltman. Representative Lee, you asked about the 
development assistance. If you note, what we have done is we 
have increased the ESF, that we are moving into a situation 
where we are using ESF as our tool rather than development 
assistance, so the overall levels of assistance have been going 
up since Fiscal Year 2008. There is some, you know, shifting 
between the budget lines, but the overall level is going up in 
order to help the Government of Yemen address the challenges, 
and particularly, as I said earlier, to try to work at the 
local level, to try to show delivery of services at the local 
level and do job creation at the local level.
    Ms. Lee. Okay, but it is my understanding, correct me again 
if I am wrong, that even with the ESF funds and the development 
assistance account we are still looking at a reduction of about 
$6 million over the previous year.
    Ambassador Feltman. I will look at the numbers carefully. 
The overall assistance, not counting the 1206 money, in Fiscal 
Year 2008 we were providing about $17 million, Fiscal Year 2009 
amounted to about $40 million, Fiscal Year 2010 amounts to $67 
million, and the President's budget request that was just 
submitted has $106 million for Fiscal Year 2011. So, in fact, 
we are on a steady increase on both tracks of our policy which 
means providing security assistance and providing assistance 
for development.
    Ms. Lee. Okay. Finally, let me just ask you how many 
Americans are living in Yemen? Do we have an idea?
    Ambassador Feltman. You know, our Embassy would definitely 
have an idea, and I will have to get back to you on what they 
report their estimates are.
    Ms. Lee. Okay. But primarily are they U.S. Government 
workers, personnel?
    Ambassador Feltman. Representative Lee, it seems that the 
estimate from the Embassy and consular affairs section is 
40,000 to 50,000.
    Ms. Lee. 40,000 to 50,000. Okay. Thank you very much. I 
yield the balance of my time.
    Chairman Berman. The time of the gentlelady has expired. 
The gentleman from Indiana, Mr. Burton, is recognized for 5 
minutes.
    Mr. Burton. Thank you, Mr. Chairman. Going back to the 
chairman's question about Iran, Ambassador Feltman, you 
described Iran's activities as misbehavior. Misbehavior? And 
that the United States has asked regional neighbors not to 
interfere in Yemen's internal affairs. That hasn't seemed to 
work in Lebanon, or Iraq, or North Africa. Are we 
underestimating Iran's interests and activities in Yemen?
    Ambassador Feltman. Representative Burton, I am sorry if my 
choice of words didn't properly convey how serious the 
challenge Iran poses to U.S. interests in the region are 
because it is enormous. I was Ambassador in Lebanon. I saw up 
close how damaging to Lebanon's security the presence of 
Hezbollah and Iranian support for Hezbollah is. I do not 
underestimate the challenge that Iran poses or its----
    Mr. Burton. Well, the reason I bring that up is the 
attitude of the administration has been to try to talk to all 
these people around the world and work out our differences 
verbally and continue to go on, and on, and on saying, you 
know, that we are going to do this, or we are going to do that, 
we are going to impose sanctions if they don't change, stop 
their nuclear development program, stop the terrorists in 
Yemen, and so on and so forth, or stop their assistance to 
them, and things don't change. It just continues to get worse. 
We have had two attempts in the last year by people who were at 
least partially involved or trained by al-Qaeda terrorists in 
Yemen, and it just seems like we ought to use stronger language 
and really be stronger in our interrogation of these people.
    One of the things that has concerned me is officials over 
in the Senate testified that an elite interrogation team 
created to replace a controversial CIA program dismantled by 
President Obama last year is now operational. It is not 
operational, is it? Does anybody know who it is? I have no idea 
who it is. Have you heard of who that is, either one of you? I 
mean, is it operational, and, if so, who have they been 
interrogating, and have they gotten any information, and, you 
know, what is the result?
    Ambassador Godec. Congressman, I am aware that there is an 
interrogation team. I believe there was testimony yesterday 
about it, that it is operational. We can certainly get back to 
you with additional details about it.
    Mr. Burton. Well, over in the Senate officials testified 
that this interrogation team really wasn't operational, and 
then they came back and said a couple days later that it is 
operational, and so, you know, once again we are hearing, it is 
like a ping pong ball, it is operational, it isn't operational. 
I would like to know really if it is, and, if so, I would like 
to know what they are doing in Yemen and elsewhere to get 
information about these terrorists before they try to blow up a 
plane here in the United States or kill a bunch of people at 
Fort Hood. I mean, you know, if we have got an interrogation 
team and we know al-Qaeda is there or a subsidiary of it is, 
why in the world isn't our intelligence people and our military 
people capturing these individuals and really digging the truth 
out of them, and also, using technology and procedures that are 
going to be able to get information.
    I know the President said, well, waterboarding is inhumane, 
and I saw a television commentator on television actually going 
through waterboarding. He said it was very scary, but he 
survived it and it didn't seem to bother him too much, and yet, 
when we used it they said, my gosh, it is inhumane and it is a 
terrible approach to getting information. I think when you are 
dealing with terrorists who want to kill 250 people or so on a 
plane or terrorists that are instructing somebody at Fort Hood 
to kill a bunch of American military personnel that we ought to 
do whatever is necessary within certain bounds to get that 
information.
    I am one of those who believes we ought to use 
waterboarding or whatever it takes to get that information 
because once they kill a bunch of Americans, everybody is going 
to say why didn't we do something about that? That is why I am 
very concerned about this interrogation team, because I don't 
believe it exists and I believe they are scrambling around 
right now trying to get it together so they can say, yeah, we 
have been doing that and we have had it for a while. One more 
thing, Mr. Chairman, if I might. This guy that got his Miranda 
rights after he got on that plane or after he got off the plane 
and he got a lawyer paid for by the United States of America, 
the FBI said they went over and they talked to his parents and 
that gave them the information necessary to elicit more 
information from him about what was going on in Yemen where he 
was trained. Are we going to be sending FBI agents around to 
parents all over the world to get information like that? That 
is ridiculous. If we get a person who is a terrorist who tried 
to blow up a plane, we need to get on him right away. Quickly. 
Fast.
    Chairman Berman. Time of the gentleman has expired. The 
gentleman from Georgia, Mr. Scott, is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman, and welcome. I am over 
here. Last year I traveled to Yemen, walked the streets of 
Yemen, along with our Navy Seals, of course. The thing that 
struck me was as we moved through the city, at exactly 1 
o'clock all of the men that we could see were reaching in bags 
getting this green stuff, sticking it in their jaw. It was so 
disfiguring, grotesquely. You could see it all over where we 
looked over the streets. These weren't just young kids, these 
were police officers, they were businessmen. The issue that I 
want to ask is what are we doing to address this issue? It is 
more than just a leisure thing. Qat has become the primary 
degradation of their poverty.
    It requires an immense amount of water of which there is a 
shortage for. Their number one economic asset being oil will be 
depleted in 7 years. It takes so much land to grow the qat that 
they can't even grow food. So it seems to me that this is a 
fundamental situation that I think we have got to address 
because it is the driving characteristic of that economy, of 
that culture, that is not only making Yemen a failed state, it 
has become a failed state, and this is the driving force for 
it. What is our strategy to deal with qat?
    Ambassador Feltman. Representative Scott, I think you have 
described the problem very articulately. You know, qat is 
depriving families from income, it is preventing people from 
effective employment, it is, as you said, using up precious 
water resources. The World Bank and others are working on ways 
to combat this, to tackle this. It is hard. You know, this is a 
cultural thing, as you yourself witnessed when you were there. 
You know, we are working behind this. We are working to back up 
the World Bank and other people's efforts on this, and we are 
trying to compliment it by the new USAID strategy I described 
with you which will have some focus on small business 
development and agribusiness development to try to create new 
opportunities and new markets to provide incentives to get 
people away from this.
    This is a severe problem, it is a long-term challenge, and 
you are absolutely right that all of us need to be working 
together to address it. I don't think there is any short-term 
fix to the long-term qat problem.
    Mr. Scott. Well, thank you. Mr. Godec, let me ask you to 
comment on the accuracy of the size of al-Qaeda there. Last 
week I read in the New York Times where a member of the Obama 
administration stated that we have killed approximately 20 
percent, and they put an accurate figure of between 300 and 
400, al-Qaeda operatives in Yemen. First of all, is that 
accurate? 1) Have we eliminated in the past few months 20 
percent? 2) Is the 300 or 400 the accurate figure of the number 
of al-Qaeda in Yemen?
    Ambassador Godec. Congressman, as Secretary Feltman said, 
the number that we have on al-Qaeda in Yemen is from the 
Foreign Minister, from Foreign Minister Qirbi. What he said was 
200 to 300. Several hundred was his specific reference. That is 
the best number that I have available this morning. Obviously, 
as I said, the Government of Yemen has taken a number of steps 
to address this threat. There have been a number of actions, 
military, and law enforcement and others. A number of al-Qaeda 
have been taken off the streets, a number have been killed, a 
number are in prison. I can't give you confirmation that the 20 
percent number is accurate. It may be accurate, but clearly, 
ongoing actions are in fact, taking al-Qaeda off the streets in 
Yemen right now. This really is a commitment by the Government 
of Yemen to address this problem.
    Mr. Scott. Yes. In my last 10 seconds I hope I can get this 
in. This is a regional situation. Have we involved the nations 
of Kenya, Ethiopia, Oman, and Saudi Arabia as well, and 
Djibouti to impact a regional effort dealing with Yemen?
    Chairman Berman. I think the time has expired. Maybe you 
can work that answer into an answer to someone else's question. 
The gentleman from Florida, Mr. Bilirakis, is recognized for 5 
minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. Sorry that I am a little late. Recently I visited 
the prison at Guantanamo Bay, this is for the panel, and left 
with a feeling that it was probably the best living conditions 
that terrorist enemies had ever experienced. Dozens of those 
inmates have been released from Guantanamo to Yemen and have 
been reintegrated with al-Qaeda in Yemen. Despite all the 
terrorist activity taking place within Yemen, it is still eager 
to accept up to 100 additional inmates. My question is, can 
Yemen really be serious about wanting to assist us in 
eradicating al-Qaeda when it is eager to welcome Guantanamo 
inmates? I understand we are not sending those inmates now, and 
I agree with that policy, but if you can answer my question.
    Ambassador Feltman. Congressman, I know that in my region, 
which is the near east region from Morocco through Iran, all 
countries that have nationals who are incarcerated in 
Guantanamo, all the countries policies are that they want their 
nationals back. That is a standard policy across the region. It 
varies from place to place about what that is, what they would 
do with them, et cetera, but it is not unique to Yemen that the 
Yemeni Government says please send the Yemenis back to Yemen. 
As you pointed out, the President on January 5 made the 
decision that because of the security environment, because of 
threat considerations, that he was suspending the return of any 
Yemeni Guantanamo detainees back to Yemen.
    The previous administration had sent 14 detainees back to 
Yemen, this administration had sent seven back to Yemen, 
including one in September that was under Court ordered 
release, but all of these decisions that the administration has 
made were done by consensus, evaluating the threat environment, 
evaluating the individuals in question and taking into account 
all the information that we had.
    Mr. Bilirakis. Thank you. Would you like to comment on it 
as well?
    Ambassador Godec. I would just indicate that, you know, I 
share Secretary Feltman's views and comments on this. I agree 
with him. I think there has been a very intensive process in 
this administration, a review of all of the detainees in 
Guantanamo by a task force of 60 lawyers, experts and various 
sorts, and anyone sent back anywhere was done so by a unanimous 
agreement. The key point, I think, with regard to Yemen at this 
moment is that, as Secretary Feltman said, the President 
announced on January 5 that he is suspending the transfer of 
detainees back to Yemen.
    Mr. Bilirakis. Thank you. My second question is, recent 
events in Yemen, coupled with past events, suggest that Yemen 
is not a partner in the war on terror. I want to get your 
thoughts on that and see if you believe this is a working 
relationship which can be salvaged, and if it is worth 
salvaging, what type of preconditions would you put on any aid 
we might provide?
    Ambassador Feltman. Congressman, we would agree with you 
that Yemen has been, I would describe it as an inconsistent 
partner. There have been times when Yemen has focused on the 
al-Qaeda challenges, there have been times when Yemen hasn't 
been as focused as we believe they should. We are encouraged by 
the determination the Government of Yemen has taken over the 
past couple of months. We believe that the leadership in Yemen 
from the President on down now understands that al-Qaeda is the 
preeminent threat in Yemen to Yemeni interests. We want to 
build on that. Our security assistance goes hand in hand with 
our development assistance in Yemen, but it is based on a 
partnership that must address these challenges.
    Mr. Bilirakis. Would you like to address that as well?
    Ambassador Godec. I would just underscore the importance of 
looking at Yemeni actions. I think that those actions recently 
have been very clear, and they have been taking the fight 
directly to AQAP. Frankly, given that it is ultimately Yemenis 
who have suffered most from AQAP attacks, more Yemenis have 
died because of their attacks than others, I think that that 
commitment is a good thing, it is a positive thing and it does 
indicate, I think, that it will continue.
    Mr. Bilirakis. Okay. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Berman. Time of the gentleman has expired. I 
remind the committee that we have an excellent panel of expert 
outside witnesses to testify after the Secretary and the 
Ambassador are finished, and I recognize the gentleman from 
Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. I thank the chair, I thank you both for 
appearing here today, and I would ask unanimous consent that my 
opening statement be entered into the record at this point.
    Chairman Berman. Without objection.
    Mr. Connolly. Mr. Chairman, before I begin asking some 
questions of the witnesses I just want to respond to my good 
friend Mr. Burton. I respect him, but I do not agree. I 
profoundly disagree with the idea that the United States of 
America would engage in torture to ring confessions out of 
would be suspects. Torture--waterboarding is torture--is not an 
American value. We have always striven in this republic for the 
higher plane. We represent values. That is what makes Americans 
Americans. Not our ethnicity, not our religion, not our credo, 
but our values. Torture is never, and must never be, an 
American value. The facts of the case of Abdulmutallab, as a 
matter of fact, would be contrary to what was suggested.
    The visit to his parents elicited cooperation. The reading 
of his Miranda rights was no different than the reading of the 
Miranda rights to the shoe bomber, Mr. Reid, which occurred in 
the previous administration, I might add, not once, but four 
times. As a matter of fact, we now have the cooperation of the 
suspect in sort of singing his song about his contacts and the 
network. It has been an effective strategy. Not torture, but 
good, hard investigative techniques. I wouldn't want anyone 
watching this hearing, Mr. Chairman, to believe for a second 
that the idea that torture is okay for the United States of 
America as a weapon in the fight against terrorism because 
torture actually can turn against us.
    It puts every American who travels abroad at risk, it costs 
us the high ground, and, as a matter of fact, it is 
counterproductive. So I just wanted to say that at the 
beginning, Mr. Chairman, because I wouldn't want anyone to 
think that that view was representative of most of us, I think, 
in the United States Congress on both sides of the aisle. Now, 
if I may ask, isn't the problem in Yemen one of governance? I 
mean, is there a functioning government we can work with? You 
know, there are so many things one can point to that would 
suggest serious disfunctionality. If we don't have a 
functioning government to work with, how do we secure our 
interest in what is now yet another boiling pot in an obscure 
part of the world?
    Ambassador Feltman. There are many problems facing Yemen. 
There are many problems inside the government. I will quote a 
former Ambassador to Yemen, Barbara Bodine, who last week or 2 
weeks ago described Yemen as a fragile state rather than a 
failed state. There is a history of trying to solve problems 
locally. There are 21 different governorates. The 21 different 
governorates have different cultures, geography, relationships 
with the central government, but there is, in fact, a 
government. It may not be a government that is functioning as 
well as we would all like it to, it may be a government that 
there are certain grievances against it by different parts of 
the population, but there is a government, and it is a 
government that we want to work with in partnership on all of 
these areas.
    We don't only want to work with the government, and that is 
an important point. There are 7,000 civil society organizations 
in Yemen. This is a very vibrant civil society. We are working 
with those as well. There are local governments that address 
local challenges. We are working with that as well. So we are 
not relying exclusively on the central government even as we 
partner with the central government to face some security and 
development challenges.
    Mr. Connolly. Is it a government that is cooperating with 
us, Mr. Assistant Secretary, in your opinion?
    Ambassador Feltman. It is. As we have said here, we have 
seen new determination that is encouraging in the fight against 
al-Qaeda, and we have also seen new determination that is 
encouraging in trying to improve the governance and its own 
capacity.
    Mr. Connolly. Mr. Ambassador, we have 44 seconds.
    Ambassador Godec. I would just underscore again that we 
have seen, I think, some real changes recently in the 
Government of Yemen and in its determination to cooperate with 
us in key areas, areas that are of great importance to the 
United States, first and foremost, the fight against AQAP. I 
think that this is new and that it is a very positive 
development. We hope going forward that we can deepen this 
cooperation, certainly in the security area, but also in the 
development area. It is essential. We need to work with the 
Yemenis very closely, and we need the assistance of our friends 
and allies in the region in order to address the challenges.
    Mr. Connolly. Thank you. My time is up, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Illinois, Mr. Manzullo, is recognized for 5 
minutes.
    Mr. Manzullo. Thank you. I am sorry that I got here late. 
Combination of trying to figure out what happened in Illinois 
in the election last night and trying to figure out what 
happened in Illinois in general in the past 100 years. There 
was an article written November 19 of this past year in the 
Washington Post concerning two brothers from the country of 
Yemen. One of the brothers had been detained at Guantanamo for 
the past 8 years, alleged to have been involved in the USS Cole 
incident, the other brother living in Yemen. The brother in 
Yemen talked about the promise of the President to close GITMO.
    He says if the President does anything less than closing 
GITMO, that is, moving GITMO to the United States, that the 
hatred and animosity that the terrorists and possible recruits 
for the terrorists have toward GITMO would be transferred to 
the U.S. facility, ostensibly in Thomson, Illinois. He said 
moving that facility will make the Yemenis even more prone 
toward terrorism than they are now and even exacerbate and 
increase the recruitment of al-Qaeda. I was wondering if you 
could comment on that. You don't have to fight over who is 
going to answer the question, you know.
    Ambassador Godec. Congressman, I think I would just 
underscore that there is a real commitment on the part of the 
administration and President Obama to close Guantanamo. I think 
there is no doubt that it is a real problem for us around the 
world, the existence of Guantanamo and the facility there. Our 
senior military leaders have indicated that, in fact----
    Mr. Manzullo. You know, I understand that. I am asking if 
you could comment on what the Yemenis themselves are thinking 
where one brother is incarcerated, the other one is out, on the 
attitude of transferring that hate from GITMO to Thomson, 
Illinois.
    Ambassador Godec. Congressman, I am not aware specifically 
of any Yemeni reaction to the question of the possibility of 
transferring the facility.
    Mr. Manzullo. Mr. Ambassador, what I quoted you was 
actually, let me give you the exact quote. Uthman Abdul Rahim 
is the person at GITMO. His brother is Arif. Said he was 
confident Obama would close GITMO in 1 year. If he doesn't or 
if Uthman and other detainees are sent to a prison in the U.S., 
many families would consider it an even greater betrayal. ``The 
families, their friends, their tribesmen will have more hatred 
for the United States,'' Arif said, ``and perhaps they will 
consider taking the same path as the extremists.'' So my 
question to you is to comment on that statement coming from the 
Yemenis themselves.
    Ambassador Godec. Congressman, I think that obviously we 
have a situation where there are individuals in Guantanamo. 
Something needs to be done with them and the administration is 
considering all of its options.
    Mr. Manzullo. I understand. I am just asking you to comment 
on this. This is not a difficult question.
    Ambassador Godec. I would be happy to take the question for 
the record, Congressman.
    Mr. Manzullo. This matter has been around for months. It 
has been discussed publicly. It is not something that I am 
going to give to you and you can take back and answer me in 6 
weeks. I mean, you are familiar with the area more than 
anybody. It is very intimate. This is one brother who is saying 
his brother is at GITMO and if GITMO is transferred to the 
United States, the hatred will transfer. That is a very simple 
question. Do you agree with him or not?
    Ambassador Godec. Congressman, I would just have to repeat 
or reiterate that I would really have to take that question 
back for consideration. I am not sufficiently familiar with 
this specific case or these two brothers in order to comment on 
it.
    Mr. Manzullo. Mr. Ambassador, that is the problem, okay? I 
represent Thomson, Illinois. I had 12 hours notice that it was 
going to be moved to my congressional district. I have got 
nothing less than obscure answers every time I ask a question. 
I am asking for, I mean, do you agree or not? This is a 
statement of a Yemeni himself. If he hates GITMO and GITMO is 
transferred, will he hate Thomson, Illinois?
    Chairman Berman. The time of the gentleman has expired.
    Mr. Manzullo. I would ask to have 30 additional seconds.
    Chairman Berman. I am sorry. I don't understand how the 
Ambassador can answer a question coming from someone that he is 
not familiar with and evaluate whether it is an accurate 
statement or not. In any event, my feeling is irrelevant, the 
time has expired. The gentlelady from California, Ambassador 
Watson, is recognized for 5 minutes.
    Ms. Watson. Thank you, Mr. Chairman. Over the past several 
years U.S. foreign policy to Yemen has averaged between $20 
million and $25 million annually. However, in Fiscal Year 2010 
the Obama administration requested about $50 million in aid. 
The assistance to Yemen in this fiscal year has already reached 
$67 million, and the Fiscal Year 2011 request is closer to $100 
million. So keeping these increases in mind, should we be 
expecting a Yemen supplement later this year? Can you mention, 
either one of you, who our partners are in Yemen, and what can 
we expect from them in the next few years?
    Ambassador Feltman. Representative, thanks for the 
question. The money for Fiscal Year 2010 and the President's 
request for the budget for Fiscal Year 2011 are in the regular 
budget. They are part of our regular foreign assistance 
numbers. Of course, we have had to evaluate how best to devote 
those resources and came up with those figures for Yemen, so I 
would not expect a supplemental for Yemen. In terms of the 
partners, it is a good question because we do have to leverage 
our assistance with others. In terms of Europe, the British are 
major donors. The British have announced <brit-pound>50 million 
starting in 2011. That is about $82 million, $83 million for 
Yemen. So it is in the ballpark with what we are doing.
    The Netherlands and Germany are big donors, the World Bank 
is involved. The major donors are the Gulf countries, Yemen's 
immediate neighbors, Saudi Arabia, the UAE and others. The UAE 
announced a $600 million plus pledge to Yemen just recently. So 
the London conference that I attended with Secretary Clinton 
last week was an important milestone because it started out a 
process by which all of us will be working together in order to 
support development, stability, economic opportunities in Yemen 
which we hope will start to reverse some of the really 
appalling social and economic indicators in Yemen that can feed 
into the very hatreds and problems that we have been talking 
about.
    Ms. Watson. I understand that about 50 percent of the 
children are malnourished and illiteracy is high, and piracy 
has travelled from Somalia into Yemen in the last few years, 
income from oil is failing, and, as in my own district, Los 
Angeles, California, water scarcity is a growing problem. With 
respect to these problems, what has been the result of the aid 
that we have given, the aid that the partnership is involved 
in, and how do we intend to improve the impact of this aid? 
Tell us how it relates to our best interests, too.
    Ambassador Feltman. I will answer the last first, which is 
we firmly believe that if we just look at Yemen tactically we 
are not going to be able to solve these issues, and if we only 
look at Yemen from a security perspective, that is also 
insufficient to actually address the security challenges. We 
need to look at Yemen over the long term to address the sort of 
development challenges, the grievances, the despair that people 
have that can feed into a negative security environment. So we 
want to address security, development, and governance at the 
same time. We have a new strategy in terms of our assistance 
strategy to Yemen. We signed it with the Yemeni Government in 
September.
    So before the Fort Hood attacks, before the December 25 
attempted bombing, we were already looking at new ways in order 
to most effectively get assistance delivered to the people on 
the ground because you pointed out the social indicators 
yourself. They are appalling. The Government of Yemen admits 
they are appalling. We need to find ways to make sure that 
health, education and job opportunities are available at the 
local level.
    Ms. Watson. Thank you. I will yield back my time, Mr. 
Chairman.
    Chairman Berman. Time of the gentlelady has been yielded 
back. I was advised, and actually remember, that a previous 
member on the majority side, because I wasn't alert was given 
about 50 extra seconds to question, and so I am going to 
reverse the ruling of the lower Court and give Mr. Manzullo 50 
seconds to pursue his question.
    Mr. Manzullo. Thank you, Mr. Chairman. As the 
administration's top experts on the Middle East and on 
counterterrorism, how would transferring the entire Guantanamo 
Bay detention center to the U.S. make our nation any safer when 
there are clear warnings, such as what happened on December 25?
    Ambassador Godec. Congressman, I think that, you know, it 
is clear that al-Qaeda needs sort of no further excuse than it 
has already got to attack the United States. I mean, it is 
constantly plotting and planning to attack the United States. 
It poses a real threat to us in its many manifestations.
    Mr. Manzullo. You are not answering the question. Nineteen 
seconds.
    Ambassador Godec. I would just emphasize that Guantanamo 
needs to be closed. It is essential that it be closed. I think 
that obviously the administration has----
    Mr. Manzullo. I want to say how disappointed I am in your 
unwillingness to answer this very simple question. I am now out 
of time.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from California, Mr. Royce, is recognized for 5 
minutes.
    Mr. Royce. Thank you, Mr. Chairman. Recently, I will just 
ask this question, the New York Times ran that story on Imam 
University. Four thousand men gather there in a football-sized 
mosque every week, and, as they say in the story in the Times, 
Zindani, the headmaster who is the theological advisor to Osama 
bin Laden, after all this, this is a guy who is a designated 
terrorist by the U.S. Treasury, he sort of oversees this 
operation, and this is where John Walker Lindh studied before 
fighting us in Afghanistan, it is where the internet preacher, 
Anwar al-Awlaki, who preached to the Fort Hood shooter got his 
ability to give lectures.
    He also was tied to the Nigerian who attempted to hit us on 
Christmas Day. Now we have reports that up to three dozen 
Americans who have converted to Islam during incarceration in 
the United States are currently in Yemen, and they have 
traveled to Yemen to study Islam. Now, I assume that means they 
are going to the Imam University where these other terrorists 
were trained. Law enforcement officials have been concerned. 
They say they have dropped off the radar for weeks. Now, in the 
past, President Saleh has been lobbied to have Zindani removed 
from the terrorism list. I don't know what he is thinking about 
this university, but I would think that it might be time to do 
something since this is being used to train terrorists. I 
wanted your opinion in terms of your feelings about that and 
maybe what steps you are taking.
    Ambassador Feltman. Congressman Royce, thanks. Let me make 
a couple of comments and ask Ambassador Godec to add. As you 
know, Yemen is a sovereign country so part of our dialogue with 
Yemen, our requests of Yemen of course are associated with 
things like how to build an effective counterradicalization 
program. Ultimately, these decisions are Yemeni decisions, but 
yes, we are engaged with the Government of Yemen on exactly the 
sorts of recruitment tools that we see happening in Yemen. We 
have also talked to the Yemenis about watching their own 
immigration rules. I think the Yemenis have recently picked up 
some Americans, in fact, for immigration violations and people 
who have overstayed their visas, which is an encouraging----
    Mr. Royce. You have got 36 ``blond-haired, blue-eyed 
Americans,'' who our Government said ``we thought we had this 
place blanketed, we thought we were working it very closely, 
but now they have fallen off the radar.'' So, you know, I 
understand we are appealing to them, but in the meantime, 
terrorists are being trained apparently.
    Ambassador Feltman. No. Without question, this is a 
concern. There is very little ability, I think, of the U.S. 
Government--you would have to talk to the immigration officials 
to prevent the travel by U.S. citizens. So we have to be in 
touch with the Government of Yemen about any violations in 
their own rules. We are also doing things to promote 
counterradicalization in Yemen. We are working on programs. The 
Democracy, Human Rights and Labor Bureau of the State 
Department, for example, runs a very effective program on 
religious tolerance in Yemen. So we are working on this 
problem----
    Mr. Royce. Yes, I understand, but you have still got 4,000 
people meeting every week in a football-sized mosque where, if 
the New York Times is correct, they are being encouraged by, 
what will we call it, the brain trust for al-Qaeda, to launch 
terrorist attacks, and that is still going on, right?
    Ambassador Godec. I would just underscore what Assistant 
Secretary Feltman said. We are deeply concerned about this, we 
are very well aware of this and other institutes, and schools 
and universities which are engaged in transmitting or teaching 
the extremist message. It is something that we are seized with. 
We are working with the government on this. We are looking for 
a variety of ways to address the problem. It is a serious 
issue.
    Mr. Royce. In the meantime, with al-Shabaab. You have got 
these Yemenis from this same university are training and 
fighting with al-Shabaab right now. Thank you, Mr. Chairman.
    Chairman Berman. Time of the gentleman has expired. 
Remember, for the remaining members who haven't questioned yet, 
we do have a second panel. Now it is the gentleman from 
American Samoa, Mr. Eni Faleomavaega, who is recognized for 5 
minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I appreciate 
your leadership and initiative in having this hearing this 
morning. I do want to say that I think too often we don't say 
enough to express thanks on behalf of the members and certainly 
our colleagues to those of our fellow Americans who serve in 
the Foreign Service. Secretary Feltman and Ambassador Godec, 
thank you for your commitment and your dedicated service on 
behalf of our country. I mean that sincerely because in this 
part of the world, for any given day any of your lives could be 
taken. The sacrifices that your families make, I think we 
sometimes tend to overlook that. We do deeply appreciate the 
service that you give to our country.
    Yemen has 24 million people and is a failed state. Several 
incidents and instances where our country has given some kind 
of connection in such a way that has not necessarily been 
positive. Just to make sure for the record that I have a sense 
of understanding, the al-Qaeda movement, was this initiated by 
Osama bin Laden? Your understanding, gentlemen? I just want to 
make sure.
    Ambassador Godec. Yes. I mean, he certainly was one of 
the----
    Mr. Faleomavaega. Founders.
    Ambassador Godec. Yes.
    Mr. Faleomavaega. Okay. Would it be safe for me to say also 
that one of the deepest concerns that our country has raised is 
that Yemen has become a breeding ground for al-Qaeda? Then I 
would like to ask, what is the estimated number of al-Qaeda now 
present in Yemen?
    Ambassador Godec. The number that we have is from the 
Foreign Minister of Yemen, Foreign Minister Qirbi, and he has 
said that there were several hundred, 200 to 300, specifically, 
al-Qaeda in Yemen right now. That is the number that we have.
    Mr. Faleomavaega. I want to make this connection, and I am 
not trying to be parenthetical about what I am expressing 
concern about. If the media reports are accurate, there are 
some 27,000 Taliban in Afghanistan and a couple of hundred al-
Qaeda. We already have 68,000 soldiers on the ground in 
Afghanistan, and we are about to send another 30,000 soldiers 
to Afghanistan totaling approximately 100,000 soldiers that are 
going to be looking for these 27,000 Taliban and a couple of 
hundred al-Qaeda. And I suspect in the next 18-month period, 
that there is going to be another $100 billion that we are 
going to have to spend to look for these people. My question to 
both of you gentlemen: Is there some kind of a policy about 
proportionality?
    How many Yemenis are we going to be chasing when the al-
Qaeda is going to be acting or giving its presence, whether it 
be in Africa or in other parts of the world? My concern is that 
is there some point where the administration is making a 
determination to say we have got a couple hundred al-Qaeda in 
Yemen, so therefore, we have got to do everything that we can. 
Is the issue of al-Qaeda just a security concern or is it more 
than just that? What is it that attracts these people to join 
the al-Qaeda movement? I am sure it is not just for the fun of 
killing Americans.
    I think it is a deep-seated idealogy, thousands of years of 
traditions, tribal rivalries and all of these things at play. 
But here, our whole objective is security on our part, to 
protect the security of the American people. Who doesn't want 
that? In the meantime, we are going to be killing these people 
who have no idea what democracy is about, nor do they care. I 
just want to ask you gentlemen a question. We are going to be 
giving more economic assistance to Yemen, more of the same 
thing that we are doing to Afghanistan, but is it going to 
solve the problem of al-Qaeda? Gentlemen? Here is my problem.
    Ambassador Godec. Go ahead. Please.
    Mr. Faleomavaega. There are no ethnic Afghans. There are 12 
million Pashtuns, 7 million Tajiks, almost 3 million Uzbeks and 
three or four other major tribes that make up the population of 
Afghanistan. Right on the border of Afghanistan and Pakistan 
are 27 million Pashtuns, even though they may be Pakistani 
citizens. So is it any wonder Osama bin Laden has been freely 
roaming between Afghanistan and Pakistan? We couldn't find him 
after 8 years. What makes you think that we are going to be 
able to solve the Afghanistan problem by sending 100,000 
soldiers to do this task?
    Ambassador Feltman. I know we are running out of time but I 
would just like to note, Representative, if I may, that Yemen 
is different.
    Chairman Berman. You have made that point, and you have run 
out of time.
    Mr. Faleomavaega. Sorry. Thank you.
    Chairman Berman. The gentleman from North Carolina, Mr. 
Miller. Both of our witnesses have to leave at 11:15.
    Mr. Miller. Thank you, Mr. Chairman. There have been a lot 
of questions this morning about governance in Yemen, and 
sometime in the past Yemen led the region in democratic 
governance reforms, and that obviously is not the case now. 
Whether you call it a failed state or a fragile state, it is 
pretty clear that much of Yemen is ungoverned and all of it is 
lightly governed. General Anthony Zinni said that ungoverned 
areas were a Petri dish for extremism and radicalism and that 
certainly appears to be the case in Yemen. There was a recent 
Washington Post article that said there was a London conference 
to encourage or insist upon very broad political and economic 
reforms in exchange for a package of long term development and 
security assistance, not just from the United States, from 
other nations.
    What is the nature of what we are asking Yemen to do? What 
do they appear to do? Are other nations supporting us in our 
demands? Are we supporting the demands of other nations? And 
then second, you mentioned earlier the neighbors of Yemen are 
the natural donors. They have got the money to do it. There was 
a conference in 2006. There were pledges of $4.7 billion in 
assistance to Yemen, but the most recent information is only 7 
percent of that pledged aid has arrived. Why is that?
    Ambassador Feltman. On the last question, we believe the 
figure is more like a third. It is still only a third of what 
became $5.2 billion. There were some extra pledges that came 
in. Part of it is questions of capacity, part of it is 
questions of governance, lack of confidence in some of the 
institutions of the state. So part of our challenge now is 
working together, sending a collective message to the 
Government of Yemen about what do we expect in terms of how 
they would manage this assistance, and providing assistance and 
actually managing donor funds, managing accounting for donor 
funds and delivering services. We ourselves believe that we 
need to be working across Yemen.
    I would describe Yemen as being poorly governed in many 
cases. We are working, for example, through our Middle East 
Partnership Initiative in 14 governorates. USAID's new two 
pronged strategy is trying to get at some of the areas where 
there has been an absence of government functions in a way to 
try to build those functions so that there is a sense by the 
local population that their grievances are being addressed, 
that their needs are being met. What is encouraging out of 
London was the consensus among the regional partners, the 
international community and the international organizations 
represented there, which is that we need to be working 
together.
    We need to be working not to interfere in Yemen, not to be 
imposing international mandate or something on Yemen, but to 
encourage the Yemenis to put in place types of systems that are 
responsive to the real needs of the people. In addition, we are 
working, through these civil society organizations, to help 
them organize themselves to be able to make demands of the 
Yemeni Government. Yemen has elections next year. In April 2011 
there will be parliamentary elections in Yemen. We hope that 
those elections involve the sorts of groups that would make 
those elections credible--responsive political parties, active 
civil society, full engagement by women in the electoral 
process. The international community will be sending these 
sorts of messages and providing this sort of assistance as we 
move ahead.
    Mr. Miller. Who are these 200 or 300 people? AQI, al-Qaeda 
in Iraq, appears to be entirely indigenous. They aren't going 
anywhere. They are just going to stay there. Are these 200 or 
300 Yemeni mostly, or are they from elsewhere? Have they failed 
in Afghanistan? More broadly, are they native to Yemen or are 
they being given sanctuary by other Yemenis, which, by Yemenis, 
would suggest more support for them and less support by the 
government.
    Ambassador Godec. Congressman, many of them are Yemeni, but 
some do come from other places. Some of them are Saudi. As we 
know, at least one of them is also a dual Yemeni-American 
citizen. They are from a range of places. Some of them do have 
experience or training in other regions, in South Asia, for 
example, but many of them are Yemeni. They have built over time 
their relations through tribal, and marriage and other ties.
    Chairman Berman. Time of the gentleman has expired. At 
11:15 I am going to excuse both witnesses, and any members who 
have not been able to question them will have the first 
opportunity to question, assuming that is an appropriate way to 
work it out for the next panel. The gentleman from Florida, Mr. 
Klein, is recognized for 5 minutes.
    Mr. Klein. Thank you, Mr. Chairman. Mr. Secretary, nice to 
see you, and Mr. Ambassador, thank you for being here. I think 
we all understand that there is a clear price to pay if we 
don't increase our attention to this part of the world. We also 
know that we have a responsibility to commit serious and 
rigorous oversight over what we are doing and the resources 
that we are putting into that area. The language in the Yemen-
U.S. End Use Monitoring Agreement basically says that the 
equipment can be used for a mutual threat or for ``internal 
security, individual defense or civic action.'' I don't know if 
I am alone in thinking this, but the language sounds somewhat 
ambiguous, and I understand this is standard language for State 
Department commitments like this.
    There was a recent story in the New York Times that talked 
about Yemeni extremist groups having no trouble in buying or 
stealing equipment from Yemen's military, which has struggled 
to maintain its morale, discipline, in a region torn by tribal 
allegiances, and largely beyond control of its government. 
Again, I want to be clear, this is the epicenter of what could 
be a serious problem with al-Qaeda and others, so I am very 
committed to the goals here, but we also know we have to be 
very smart. We have had experiences in the past where we have 
put military equipment and resources in a particular country 
that isn't stable and that equipment gets into the hands of 
people that are not only going after our men and women and 
supplying terrorists. So the question is--tell me about this 
end use monitoring agreement. How we are using it? Has it been 
revised to reflect an increased commitment to Yemen, and 
obviously a need for transparency? What oversight do we have in 
making sure that these resources and equipment are going to be 
used for the purposes intended?
    Ambassador Godec. Congressman, we are obviously very 
concerned about the possibility of the misuse of our 
assistance, whether it be sort of broadly developmental 
assistance or security assistance. We have a variety of 
controls that are in place in both cases. Specifically with 
respect to security equipment, we do have these end use 
monitoring agreements. We have a Blue Lantern program in 
effect. So we do have the opportunity to follow-up. So it is 
not just a matter of give the equipment and then it is sort of 
there and we don't ever get to see it again. We do have an 
opportunity to check up on it and to ensure that it is being 
properly used.
    I can assure you that, you know, we are quite vigorous in 
our efforts to help ensure that there is proper use of the 
equipment that we are giving, the security equipment. We do not 
want it misused, we do not want it transferred or given away or 
for other things to happen which would be inappropriate. So it 
is a serious concern on the part of the Embassy, it is a 
serious concern, I know, on the part of the Department of 
Defense and others, and we are aggressively working through the 
various programs that we have got, Blue Lantern and others, to 
follow-up.
    Mr. Klein. Mr. Ambassador, are the challenges different in 
Yemen in terms of this oversight? Obviously each country has 
its different set of challenges, but knowing what we know about 
Yemen and the level of involvement that the government has in 
controlling, or the military or how the military is operating, 
and the threats and the extremist groups there, are you 
comfortable at this stage that we are doing everything we can? 
Or not only just language in a commitment agreement, it is 
actions, obviously, are the key here. Are you comfortable we 
are doing every single thing we can, or is this an ongoing 
process to evolve, making it as safe as possible?
    Ambassador Godec. Well, clearly, Congressman, I think it is 
an ongoing process. It is something we have to evaluate 
constantly. We have to look at are we doing this as well as we 
can? In my experience, there is almost always opportunity for 
improvement in human life, so there may be some opportunities 
for improvement. I am comfortable that we are aggressively 
following-up on this, that we are focused on it and that there 
is a genuine effort to ensure that this equipment is being put 
to the purpose that we, you know, the administration, that the 
Congress and that the American people want that equipment put 
to, which is helping to enhance the security of Yemen, and 
therefore, ultimately, the security of the United States.
    Mr. Klein. Mr. Secretary, do you have any thoughts on this?
    Ambassador Feltman. I concur with what Ambassador Godec 
said. We are aware of a poor human rights record in Yemen, and 
we are aware of the fact that the country is awash in a black 
market on weapons. So, these factors very much play into how we 
do the monitoring. Like Ambassador Godec, I am comfortable with 
where we are, but this is something we need to watch all the 
time.
    Mr. Klein. I would ask, obviously this is a very important 
issue and the worst thing we can have for our country, and our 
troops and our interests over there, to find that U.S. weapons 
are being used against us, so just be vigilant about it and we 
will stay in touch. Thank you.
    Chairman Berman. Time of the gentleman has expired. The 
last questioner for 2 minutes will be the gentlelady from 
Texas, Ms. Sheila Jackson Lee. Then we will bring on our next 
panel.
    Ms. Jackson Lee. Thank you very much to both of you for 
your service. Let me commend President Obama for modifying our 
Yemen policy by asking the National Security Council to 
undertake a comprehensive review, quite contrary to our friends 
who have indicated that has not been the case, and quite 
contrary to the ignoring of Yemen for the last couple of years. 
Putting that on the table, I believe this is serious. I think 
it is at a crisis level. I would ask you to engage the Yemenis 
to let them know that it is at a crisis level. Number one, who 
are our allies to help us with the Yemen policy about the 
crisis of al-Qaeda and terrorists in Yemen? Who are we working 
with? Who are we pumping up? To whom are we saying this is in 
your best interest as well? Finally, their actions have cost 
lives. I am very unhappy about it. I don't think we should take 
them lightly, and I would like to hear you tell me how we are 
not taking them lightly. Thank you.
    Ambassador Feltman. First, our partners in addressing al-
Qaeda are virtually everybody, all 20 countries and five 
international organizations that were together in London last 
week with Secretary Clinton. Everybody recognizes that this is 
a threat to Yemen, it is a threat to the region, it is a global 
threat. So we have partners across the globe vis-a-vis the al-
Qaeda threat and it is particularly important that, you know, 
the Saudis and Yemen's immediate neighbors are very, very 
strong partners on this, and they themselves have been victims 
of the security threats emanating from Yemen.
    Ms. Jackson Lee. How are you highlighting the crisis? You 
know, how are we ramping up? How are we pushing Saudi to do 
more?
    Ambassador Godec. I would just underscore we are in 
constant contact with the Saudis. I think it is regularly 
discussed with the Saudis, the issue of Yemen and how to 
address it, but I think the Saudis themselves are very much 
seized with this challenge.
    Chairman Berman. Time of the gentlelady has expired.
    Ms. Jackson Lee. Thank you.
    Chairman Berman. I thank both of you for being with us. 
Very much appreciate your insights into the situation. I now 
want to welcome our second panel. We very much appreciate your 
patience, and your being here today and taking the time to both 
prepare and share your insights with us. Dr. Christopher Boucek 
is an associate in the Carnegie Middle East Program where his 
research focuses on regional security challenges. Before 
joining the Carnegie Endowment, he was a post-doctoral 
researcher at Princeton University and a lecturer in politics 
at the Woodrow Wilson School. Jonathan Schanzer is vice 
president for research at the Foundation for Defense of 
Democracies. Until recently, Mr. Schanzer was deputy executive 
director of the Jewish Policy Center and the editor of the 
JPC's journal, inFOCUS Quarterly. From 2004 to 2007, Mr. 
Schanzer served as a counterterrorism analyst at the U.S. 
Department of Treasury.
    Leslie Campbell is a senior associate & regional director 
of the Middle East and North Africa at The National Democratic 
Institute. Prior to assuming his current position in 1996, Mr. 
Campbell served with the NDI in Russia, Croatia and Serbia. Mr. 
Campbell just returned from a trip to Yemen where he has been 
working on governance issues for over a decade. We look forward 
to hearing about his experiences on the ground there today. 
Finally, known, I think, to all of us is Bruce Riedel, a senior 
fellow in the Saban Center for Middle East Policy at The 
Brookings Institution. In 2006, he retired from the Central 
Intelligence Agency after 30 years of service.
    Mr. Riedel served on the National Security Council staff as 
a senior advisor on South Asia and the Middle East under the 
last four Presidents. He was a negotiator at several Arab-
Israeli peace summits, including at Camp David and Wye River. 
In January 2009, President Obama asked him to chair a review of 
American policy toward Afghanistan and Pakistan, the results of 
which the President announced in his speech on March 27, 2009. 
Mr. Riedel has traveled extensively in Yemen and it is 
interesting to note that his father served there with the 
United Nations during the last days of the British Colony in 
Aden. Thank you all for being here. Dr. Boucek, why don't you 
start. Your entire statements will be made part of the record 
and you could summarize.

STATEMENT OF CHRISTOPHER BOUCEK, PH.D., ASSOCIATE, MIDDLE EAST 
      PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Boucek. Mr. Chairman, Madam Ranking Member, 
distinguished members of the committee, I would like to thank 
you for the opportunity to be here toady to discuss this very 
critical issue about Yemen and American policy toward Yemen. I 
think, broadly speaking, Yemen is facing three critical 
challenges: Economic, human security and demographics, and hard 
security and terrorism. What I would like to do very briefly is 
speak about the first two, about the economy and human 
security. I think one of the things that becomes very apparent 
when you are looking at Yemen is every issue in the country is 
connected to every other issue and they compound one another 
and make one another worse.
    On the economy, this is the single biggest challenge facing 
the Yemeni Government. About 75 percent of the country's income 
comes from the sale of oil. Right now the country's quickly 
running out of oil has been noted in the previous panel. 
Several years ago the country was producing about 450,000 
barrels a day. Right now they produce about 180,000 barrels a 
day, and that is quickly running out. Within 10 years, most 
likely 5 years, the country will be out of oil, and there is no 
planning for a post-oil economy. Right now there is discussion 
about liquified natural gas possibly taking the place of oil 
sales. However, it is unlikely that natural gas sales would 
either meet the current volume of sales of oil or would come on 
line in time that oil goes off line.
    Furthermore, inflation is currently about 12 percent, and 
that is down from 20 percent earlier last year. Unemployment is 
officially at 35 percent, which is on par with the Great 
Depression in this country. Unofficially, it is probably closer 
to 50 percent. The economy suffers from a whole series of 
subsidies which fuel the other problems going on in the 
country. On human security, there are currently 23 million 
Yemenis, in 20 years there will be 40 million, and in three 
decades there will be 60 million. There is no way that the 
Yemeni economy can absorb all of this labor domestically. Yemen 
will have to become a net labor exporter.
    Furthermore, education and healthcare is in a poor state. 
The Yemeni Government is not able to provide social services 
throughout much of the country. Corruption in governance, as 
has been mentioned in the previous panel, is a major issue with 
the way in which the Yemeni Government has historically 
governed, has led to more and more problems in the long run. 
The biggest probably concern in my estimation is water. The 
country is quickly running out of water. Nineteen of twenty-one 
aquifers are not being replenished, and it has been estimated 
that 99 percent of water consumed in the country is extracted 
illegally. Right now there is no system to govern the 
extraction of underground water, and this is something that 
needs to be focused on.
    As the chairman mentioned in his opening remarks, it is 
very likely that Sanaa will become the first capital in modern 
history to run out of water, and this is a catastrophic 
problem. Where 20 million Yemenis or 40 million Yemenis will go 
when they run out of water is a major concern. The last issue, 
hard security, I believe others on the panel will speak about 
in more depth. There is an ongoing civil war in Saada against 
Shia Zaidi revivalists. There is a southern secessionist 
movement and a resurgent al-Qaeda organization which has proved 
over the last years to have the capacity to strike domestically 
inside the country, regionally inside Saudi Arabia, and now 
internationally.
    I would just say one thing about the hard security issues, 
and that is this civil war in Saada is rapidly accelerating the 
economic collapse of Yemen. The country is spending money at an 
alarming rate, money that they don't have to spend on water, 
education, fighting al-Qaeda, anything else. By some 
estimations, the country is spending over $200 million a month 
of hard currency reserves, which would equate to about $1 
billion over the course of the last round of fighting. 
Moreover, the conflict has led to a huge budget deficit 
forecast for this year, 23 percent by some estimations.
    Over 80 percent of the Yemeni budget is things that you 
can't cut, including salaries, pensions and subsidies. This war 
needs to end not only for humanitarian reasons, but for the 
immense damage it is doing to the Yemeni economy. I think I 
would like to conclude by saying that when we are looking 
forward and we are thinking about how to engage with Yemen and 
how to deal with Yemen looking ahead, we need to make sure that 
we focus on the systemic challenges to Yemeni security. By 
that, I mean the economics, and the hard security and the human 
security issues. We need to look at all of this in totality. It 
will not be al-Qaeda that leads to the downfall of the Yemeni 
Government, it will be these other issues.
    Right now we have the opportunity to get on the right side 
of this issue by focusing our attention on these long term 
issues. Yemen has always been a weak state, but it has a strong 
society. I think that is something that we need to keep in 
mind. Furthermore, I would reiterate what was said in the 
previous panel, that the American Government needs to keep the 
pressure on the Yemenis to make the painful choices that it 
needs to make on addressing issues like governance, on 
corruption, on subsidies, and keeping its attention focused on 
al-Qaeda. It will be only through the international community 
keeping the attention on Yemen and leading this discussion that 
the Yemeni Government will make this a priority. With that, I 
would like to thank you again for the opportunity to be here, 
and I look forward to your questions.
    [The prepared statement of Mr. Boucek 
follows:]<greek-l>Christopher Boucek deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you. That is an optimistic note to 
start off on. Jonathan Schanzer?

    STATEMENT OF MR. JONATHAN SCHANZER, VICE PRESIDENT FOR 
        RESEARCH, FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Schanzer. Chairman Berman, Ranking Member Ros-Lehtinen 
and distinguished members of the committee, on behalf of the 
Foundation for Defense of Democracies, I thank you for the 
invitation to address you today.
    I had the opportunity to visit Yemen in 2003 to conduct 
research on al-Qaeda. During my visit, I met with high level 
officials and journalists who made a convincing argument that 
Yemen was working hard to defeat the terrorists in its midst. 
Upon my return from Yemen, I even wrote several articles 
praising Yemen's effort. However, those efforts soon flagged, 
and today I believe that Yemen's counterterrorism program is 
woefully insufficient.
    Al-Qaeda has been active in Yemen since 1989. It attempted 
its first known attack against U.S. soldiers in Yemen bound for 
Somalia in 1992. In subsequent years, al-Qaeda used Yemen to 
house its businesses and logistical hubs, and by the 1990s, al-
Qaeda's affiliates in Yemen carried out several small 
operations before shifting their sites to high profile U.S. 
targets, notably the USS Cole in 2000. More attacks followed. 
In 2002, al-Qaeda elements attacked the French tanker, the 
Limburg, and then nearly succeeded in shooting down a U.S. oil 
company's helicopter with SAM missiles and automatic gunfire.
    To be clear, the nature of the threat in Yemen is as 
serious as any country in the Middle East. Al-Qaeda has long 
viewed this country as critical for training, financing and 
executing attacks.
    Yemen's understanding of this, however, was initially slow 
and begrudging. Only after the Limburg attack did the Yemenis 
appear to understand the need to work more closely with us. 
Thereafter, Yemen developed closer ties with U.S. Special 
Forces, the CIA, and the FBI. It allowed us access to air space 
and its waters. It even monitored mosques and launched a public 
relations campaign whereby clerics convinced young radicals 
that jihadism was anti-Islamic in nature. In short, Yemen 
earned the millions of dollars that we provided them in 
counterterrorism in the early part of this decade.
    This effort yielded tremendous results. In November 2002, 
based on Yemeni intelligence, the CIA launched a hellfire 
missile on six high value al-Qaeda operatives from a predator 
drone. Cooperation with Yemen also yielded many important 
arrests. This unlikely success story was remarkable, but it did 
not last long. In retrospect, this decline was not about a lack 
of capabilities, it was about Yemen's unwillingness to continue 
cooperating with the United States.
    In April 2003, 10 USS Cole suspects somehow escaped from a 
Yemeni jail. This was shocking. Jailbreaks almost never take 
place in the Arab world. This raised the question of whether 
Yemen had allowed the jailbreak to occur.
    Later that year, President Ali Abdullah Saleh announced he 
would release dozens of al-Qaeda fighters if they simply 
pledged not to return to terrorism. What began as an influx of 
Yemeni fighters to the Iraq insurgency led to an increase in 
terrorist infrastructure. In 2006, another 20 jihadists broke 
out of jail. One of them notably was Nasir al-Wahishi, an 
associate of bin Laden who went on to lead al-Qaeda of the 
Arabian Peninsula. In 2007, even as Yemen rounded up terror 
suspects, it released other high value prisoners, including bin 
Laden's former bodyguard and an organizer of the USS Cole 
attack.
    Meanwhile, Saleh has welcomed Hamas delegations on several 
occasions. He confirmed in 2002 that his country had raised 
$7.8 million for Hamas. Recently, a Yemeni news agency 
announced that Yemen opened a paramilitary camp for foreign 
fighters to train in Gaza as well. Yemen has refused to seize 
the passports and assets of Abdul Majid al-Zindani, who we 
heard about earlier, after his designation by the United 
Nations as an al-Qaeda financier. In fact, Zindani travelled to 
Saudi Arabia in December 2005 for a summit of the organization 
of the Islamic conference as part of President Saleh's official 
delegation.
    The current thinking in Washington is that Yemen needs our 
help. It undoubtedly does. However, upping our aid to Yemen 
without strict preconditions is not the answer.
    If Yemen continues to allow terrorists to roam free, the 
problems in Yemen will continue to amount, and it is up to the 
Yemenis to fix this. The government must prove it will put our 
taxpayer funds to good use rather than squander them as it has 
in recent years. The government must prove that it has a plan 
before we commit our taxpayer money. Indeed, Yemen must 
articulate how it will reverse the poor policy choices that 
have brought us to this position today.
    U.S. aid should never be guaranteed. U.S. allies must earn 
it. In recent years, Yemen has failed to uphold its end of the 
deal. It must now demonstrate that it is ready to get serious 
about combating terrorism again. On behalf of the Foundation 
for Defense of Democracies, I thank you for inviting me to 
testify here today.
    [The prepared statement of Mr. Schanzer 
follows:]<greek-l>Jonathan Schanzer deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much. Mr. Campbell?

 STATEMENT OF MR. LESLIE CAMPBELL, SENIOR ASSOCIATE & REGIONAL 
  DIRECTOR FOR THE MIDDLE EAST AND NORTH AFRICA, THE NATIONAL 
                      DEMOCRATIC INSTITUTE

    Mr. Campbell. Thank you, Mr. Chairman, and members of the 
committee. On behalf of The National Democratic Institute, or 
NDI, I also thank you for the opportunity to testify today. I 
returned from Yemen late last week after talks with government 
and opposition figures, and exiled leaders from the former 
South Yemen. NDI has been active in the country for almost 20 
years. My task last week was to seek dialogue and compromise 
among political leaders as a way of addressing the political 
concerns which are at the heart of the war in the north and the 
unrest in the south. Unlike the failed states that Yemen is 
often compared to, the country laid the groundwork for a long-
term solution to extremism years ago through democratic and 
political reforms.
    President Saleh's decision to establish basic democratic 
structures arose from a pragmatic decision after the 1990 
reunification of north and south that democracy, or at least 
elements of democracy, were necessary to govern a quarrelsome, 
stratified, armed and proudly independent population in a poor, 
rugged and diverse country. The existence of strong leaders 
from a variety of political groups and tribes, a history of 
dialogue and consensus building, vibrant civil society and the 
existence of nascent, democratic institutions all auger well 
for a comprehensive solution to the country's current 
instability. As was mentioned by a previous speaker, Yemen once 
led the Arabian Peninsula in democratic reform.
    Yemen has extended the voting franchise to women, 
established an independent election commission, held regular, 
mostly fair, elections, encouraged the formation of 
nongovernmental organizations and has tolerated, even 
encouraged, the development of opposition political parties, 
and it has created elected local government councils. Yemen's 
Parliament, while still developing, is an important forum for 
seeking consensus on policies and it does exercise oversight 
over Executive Branch decisions, although that oversight is 
limited. In an initiative that has been noted as a potential 
democratic development model for the Arab world, Yemen's main 
opposition parties ejected extremists from the ranks and formed 
the ``Joint Meeting Party'' coalition of moderate Islamists and 
former South Yemen socialists in 2003.
    Having said that, democratic institutions have atrophied 
and the Yemen Government's increasing unilateralism is 
exacerbating the country's challenges. While the democratic 
institutions that have been built could be a part of a 
genuinely stable government, the limited democratic reforms 
have not weathered political crisis of the past several years 
well. Political debate is becoming polarized, elected local 
councils lack resources and training and they are hampered by 
centrally appointed officials who still exercise control. There 
is increasing suspicion that President Saleh is grooming his 
son, Colonel Ahmed al-Saleh, who heads the Yemen Republican 
Guard, to ascend to the presidency when his term expires.
    Still, others believe that President Saleh may amend the 
constitution to extend his term, which should end in 2013. The 
current focus on security in Yemen allows the government to 
skirt responsibility for its own domestic failures. Perversely, 
some ruling party officials in Yemen seem to welcome the 
country's infamy believing that development aid, controlled 
mostly by the ruling party dominated government, and more 
military assistance will bolster their credibility. The 
ultimate antidote to Yemen's instability, though, in my 
opinion, can be found in continuing the political reform 
started almost 20 years ago. Inclusion and dialogue with the 
Houthis in the north and the former southern Yemen leaders and 
modern Islamists, combined with better governance, will largely 
muzzle and constrain the extremists.
    Last week I helped facilitate discussion between the ruling 
GPC and the opposition coalition, suggesting a formula by which 
the governing party and the opposition could form a joint 
dialogue committee to plan an agenda for talks inclusive of all 
Yemen political factions, including from the south and the 
Houthi tribal areas. President Saleh agreed to participate in 
such a dialogue, but full agreement on the process remains 
illusive. At minimum, the Yemen Government should release 
political prisoners in the south, estimated at 900 by Human 
Rights Watch--mostly southerners who have been arrested for 
planning demonstrations--as a sign of good faith. The 
opposition coalition should agree to move forward with the 
national dialogue if those prisoners are released.
    The principal of dialogue is valid. There will be no 
lasting antidote to Yemen's instability without inclusive 
government and some form of power sharing. Here are some 
recommendations: The ruling regime cannot solve the problems 
unilaterally and must work through the existing institutions to 
help facilitate dialogue; the Government of Yemen should enact 
policies that devolve district and governorate level fiscal, 
social and governing authority to local elected councils that 
already exist to ensure that local development priorities are 
reflected in national policy; addressing grand corruption must 
happen and requires a serious commitment to investigate and 
prosecute corrupt actors at the highest level of government; to 
build confidence in outcomes from the political process, the 
Government of Yemen should implement previously agreed upon 
political and electoral reforms, including agreements with the 
opposition that have been made previously; for the U.S. 
Government, development assistance should include democratic 
reform and governance; as a key pillar, aid packages should 
include clearly defined, achievable benchmarks for democratic 
reform against which continuation of aid would be evaluated; 
and finally, security and stabilization strategies supported by 
the U.S. Government and implemented by the Government of Yemen 
should include stipulations to ensure that legitimate, peaceful 
opposition movements operating within the political framework 
are not defined as destabilizing political forces and not 
repressed, as they are currently. Thank you very much, Mr. 
Chairman.
    [The prepared statement of Mr. Campbell 
follows:]<greek-l>Leslie Campbell deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Finally, Bruce Riedel.

STATEMENT OF MR. BRUCE RIEDEL, SENIOR FELLOW, SABAN CENTER FOR 
         MIDDLE EAST POLICY, THE BROOKINGS INSTITUTION

    Mr. Riedel. Thank you, Mr. Chairman, thank you to the other 
members of the committee. I thank you for taking my written 
testimony into the record, and thank you, Mr. Chairman, for the 
shout out to my dad. He will deeply appreciate it. You already 
heard how complex, difficult, and indeed, dire the situation is 
in Yemen. Much of what I have been listening to in the last few 
minutes I completely agree with. What I would like to do very 
briefly is cover three points: Our enemy, our partner and our 
allies. Osama bin Laden has had his eye on Yemen as a redoubt 
for al-Qaeda since at least 1989. It is the historic home of 
his family. He is very familiar with it. He knows the situation 
there.
    In the last several years he has made a concerted effort to 
try to revive al-Qaeda in the Arabian Peninsula and he was 
behind the decision to merge al-Qaeda in Saudi Arabia and al-
Qaeda in Yemen 1 year ago. It has turned out to be a force 
multiplier for both. Al-Qaeda's goals in Yemen, I think, are 
twofold at least. First, they seek Yemen to become a base to 
threaten not just the Yemeni Government, but more importantly, 
Saudi Arabia, the other Gulf States, and now to strike 
globally. It was no accident that the first attack by the new 
al-Qaeda in the Arabia peninsula of significance was the attack 
on Prince Mohammed bin Nayef. He had successfully led the 
repression of al-Qaeda in Saudi Arabia, and they sought to 
eliminate him.
    Al-Qaeda in the Arabian Peninsula also operates within a 
network of traditional jihadist and other extremist religious 
elements. I wouldn't focus so much on the numbers. I think 
those numbers don't really tell you very much. I would focus on 
the jihadist networks, not all of which are violent, but many 
of which are fellow travelers with al-Qaeda and its world view. 
The most dangerous element today is of course the recruitment 
of foreigners and Americans to operate against the United 
States. Secondly, al-Qaeda wants to use Yemen to expand the 
global battle space against America, that is, to stretch our 
resources even further, if possible, to bog the United States 
down in local conflicts in Yemen which can become quagmires, 
and, through all of this, relieve some of the pressure that the 
al-Qaeda core in Pakistan and Afghanistan is underway today.
    The al-Qaeda core continues to regard Pakistan as its 
number one priority, but there it is facing increasing pressure 
from American efforts. The best case for al-Qaeda would be to 
entice, to goad, to lure the United States into another 
bleeding war in Yemen as part of its grand strategy to wear 
down the United States through bleeding wars throughout the 
region. Al-Qaeda's grand strategy is, in short, to do to the 
United States in the 21st Century what they believe the 
Mujahedin did to the Soviet Union in the 20th Century. They 
would welcome large American deployments of combat troops on 
the ground. The United States clearly needs to be aware of this 
trap. I think so far the Obama administration, and the American 
military and CENTCOM has been well aware that there is no made 
in the USA solution to this problem, and that as difficult and 
complex as our partner is, Yemenis have to in the end be the 
ones who provide law, governance and order in their own 
country.
    Consequently, we need to work with the Yemeni Government. 
You have heard already how flawed it is. Successive American 
administrations have found dealing with Ali Abdullah Saleh 
very, very difficult to do. He has his own agenda, he has a 
record of inconsistency. His sympathy for America is limited, 
to put it mildly, but he is the leader who is there. I am glad 
to hear that he seems to be more focused on al-Qaeda from the 
administration. That is a step in the right direction. But he 
continues to be much more concerned about two of his more local 
problems, the Houthi Zaidi rebellion in the north, which has 
been an on and off problem for most of the last decade which 
has now dragged the Saudis into the war as well, and 
secessionism in the south.
    Let me say one word about the problem in the north. That 
deals with the question that you raised of Iranian involvement. 
Iranian involvement in this conflict is certainly a plausible 
scenario, but so far, the evidence of Iranian involvement is 
simply not there. We at the Saban center have looked very hard 
at the evidence that we can find, and so far, it doesn't add up 
to anything significant. That doesn't mean there isn't 
something there we don't know about, but we can't find it, and 
we would welcome more information from the Yemenis and the 
Saudis on it. More importantly, though, seeing the Houthi 
rebellion as an Iranian machination is also a trap, a trap to 
draw us into a local conflict which is not relevant to 
America's national security interests.
    We need to be careful not to be drawn into these local 
conflicts, and here, the administration's efforts to encourage 
dialogue, to encourage a return to ceasefires, are steps in the 
right direction. Second, of course Saleh is even more worried 
about southern secessionism. Yemen today is really a country 
created by a shotgun marriage in 1990, reinforced by a civil 
war in 1994. Al-Qaeda in the Arabian Peninsula seeks to appeal 
to southern secessionism, seeks to use that as a way to 
increase its strength and its importance. Here again, we need 
to be careful not to be drawn into these local conflicts. A 
word about our allies. This is very much not just an American 
problem.
    Yemen sits athwart one of the most important strategic 
choke points of the global economy, the Bab al-Mandeb. I had 
the opportunity just 2 months ago to sail through there. There 
is a very impressive international effort to prevent piracy in 
those waters today, but it is entirely defensive. We have no 
offensive effort to stabilize the northern and southern shores. 
Many, many countries around the world have an interest in 
stabilizing this: China, India, the United States, Europe and 
others. Our challenge has to be to motivate all of them to work 
together on this. In particular, the Saudis, the UAE, Qatar and 
Oman have to be motivated and pushed to take real steps, not 
just pledges of support, but real steps to help stabilize 
Yemen.
    They need to open up their job markets to Yemenis. There 
will never be enough jobs for Yemenis in Yemen, but there are 
jobs in Saudi Arabia and the Gulf States. They need to deliver 
on their aid promises, they need to deliver on their promises 
to rebuild the Port of Aden in order to make it a thriving 
capital once again on the Indian Ocean. The administration has 
made a strong start in London in this direction, but one thing 
we have learned over the last 30 years of United States/Yemeni 
relations is we have got to have constancy and consistency in 
our policy, and we have got to keep our eye on the ball. It is 
too easy to lose interest in Yemen because, after all, it is a 
remote place on the far side of the world, but as events of the 
last few months have demonstrated, this is an important country 
to American national interests. Thank you very much, and I look 
forward to your questions.
    [The prepared statement of Mr. Riedel 
follows:]<greek-l>Bruce Riedel deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. Thank all of you. I am going to recognize 
on the majority side, Mr. Costa first, and then Ms. Woolsey, 
and then on the minority side go in seniority order, so I now 
yield 5 minutes to the gentleman from California, Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, for this 
important hearing today. Before I get to my questions to the 
witnesses let me, as it was discussed in the previous panel for 
the record and I would like to submit it, indicate that 
notwithstanding the fact that Guantanamo is an emotional issue 
and has been, both during this administration and the previous 
administration, there is bipartisan support for closing it.
    Robert Gates, Secretary of Defense in both administrations, 
said that Guantanamo itself is a condemnation and it will be an 
advertisement for al-Qaeda as long as it is open; Admiral 
Mullen has said Guantanamo has been a recruiting symbol for 
extremists and jihadists who would fight us; General David 
Petraeus, serving in both administrations, again, I oversee a 
region in which the existence of GITMO has indeed been used by 
the enemy against us; Admiral Dennis Blair, Guantanamo is a 
rallying cry for terrorist recruitment and harmful to our 
national security; and finally, General Colin Powell, who 
clearly served in the previous administration, said Guantanamo 
has become a major, major problem for America's perception as 
it is seen and the way the world perceives America, if it was 
up to me, I would close Guantanamo not tomorrow, but this 
afternoon.
    Clearly, this is an issue that, notwithstanding its passion 
and emotion, there is overwhelming bipartisan support for 
closing that facility. To Yemen. Your recurring themes as it 
relates to the challenges with governance, the problems with 
the economy and our partners as we try to get it right or 
recalibrate a prescription to get this current governance, the 
President, on the right track is troubling for me. You said, I 
guess I understood in all the witnesses who testified just now, 
that there was a good start, I guess, in London last week. Is 
that correct? Am I getting a head nodding there? Maybe? Maybe 
not? How do we keep the commitment, Mr. Riedel, with your long 
history on the point that you closed on with Saudi Arabia, with 
the other Gulf States, to actually make good on their 
commitments and to ensure that we, as a partner, and the 
Europeans are serious about follow through?
    Mr. Riedel. It is deeply ironic for the Saudis now to be 
supporting the Saleh government since they spent much of a 
decade trying to overthrow it, but they seem to have finally 
come around to the notion that he is the only game in town and 
that he is better than the alternatives. Whether they are 
willing to put money behind that, open up job opportunities, as 
I said, is the question that remains in front of us. I think 
the administration has to appeal to the king at the highest 
level, President Obama to King Abdullah, to recognize this is 
now a very serious threat, not just to us, but to Saudi Arabia. 
After all, it was Prince Mohammed bin Nayef who was almost 
killed by this group. I think the Saudis can be brought around. 
I think they recognize. I think that attack last August was a 
wake up call for them as well.
    Mr. Costa. You think their active participation in effect 
will bring the other Gulf States in a serious effort to provide 
financial support and resources?
    Mr. Riedel. It is tricky because there is a lot of rivalry 
between the Gulf States there.
    Mr. Costa. I understand.
    Mr. Riedel. The Qataris like to promote reconciliation 
between the government and local rebels. The Saudis prefer to 
go after the local rebels. I think we have to provide the 
leadership, frankly. I think we are going to have to be the 
ones to corral them.
    Mr. Costa. We are going to have to provide the glue that 
keeps this thing stuck together and stay with it. Mr. Campbell, 
you talked about your efforts last week or in 2 weeks with the 
various party factions within Yemen. Is there really a desire 
to make these weak institutions work?
    Mr. Campbell. I think there is desire. As I have mentioned 
also, the institution----
    Mr. Costa. Or is it just a competition for power and who 
runs the country?
    Mr. Campbell. There is some competition. The paramount 
tribal leader in Yemen, Sheik Abdullah al-Akmar, died last year 
and his sons are attempting to move up the chain. They are 
attempting to challenge President Saleh's son. So some of this 
is local politics and jockeying among people seeking power, but 
some, I think, is genuine.
    Mr. Costa. My time is almost up. To the other two, and I 
don't know if you care to comment on it, but the water issue I 
will get to. That is an issue that I am heavily involved in in 
California. With the issue of the drug problem, the qat, how 
significant is that a scourge within the population?
    Chairman Berman. Unfortunately, the gentleman's time has 
expired, but perhaps we can get back to that. I recognize the 
ranking member, Ms. Ros-Lehtinen, for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much. I do have some 
questions but knowing that we may be called to a vote at any 
moment, well, I am alone so I will ask it, Mr. Schanzer, can 
you expand on your testimony regarding Yemen's ties to Hamas? 
What changes should we require from Yemen regarding its ties to 
this extremist group and other violent extremist groups, as 
well as their state sponsors? Also, in your testimony you state 
that of the 74 Guantanamo Bay prisoners who returned to 
jihadism, at least a dozen have rejoined al-Qaeda to fight in 
Yemen. An alarming statistic. When you say as long as Yemen 
fails to take counterterrorism seriously, the transfer of 
Guantanamo prisoners is ill-advised, do you recommend no 
transfers to Yemen or to anywhere? Thank you, sir.
    Mr. Schanzer. Ranking Member Ros-Lehtinen, I thank you very 
much for the question. With regard to Hamas, I would posit that 
the Yemeni Government does not view Hamas as a terrorist 
organization, but rather views it as a resistance organization. 
It has really been supporting Hamas, whether through training, 
through weapons, through financing from almost its inception 
from the late 1980s. That aid has been stepped up since the 
year 2000, since the intifada broke out in 2000, where there 
have been several high level delegations from Hamas that have 
come to Yemen. The President himself has welcomed them and has 
rolled out the red carpet for them. They have gone around and 
met with various political officials within Yemen.
    So there is a lot of concern there, and it really 
underscores the question as to whether we can rely on Yemen to 
fight some terrorist elements and then ignore others. I think 
we need to be asking for consistency as we move forward.
    As for Guantanamo Bay, I would say that the figures that 
you cite from my testimony are, in fact, very alarming. That it 
is a very high percentage of recidivism. It is my 
recommendation right now that no prisoner be allowed to return 
to Yemen at this point until they are able to first get a 
handle on their prison break situation, and also perhaps 
articulate their policy of who gets let out of jail and why. 
And then, more broadly, just why is it that such a high 
percentage of these fighters are returning back to the field?
    Ms. Ros-Lehtinen. Thank you so much. Just one note. A 
member had brought out the bipartisan support for the GITMO 
closure. I wanted to point out that the House passed the Lewis 
of California amendment that said no funds should be used to 
bring Guantanamo detainees to the United States without a 
Presidential certification. That passed June 2009. It was a 
motion to recommit that was on the floor preventing an 
Executive Order from taking effect, and it failed by only one 
vote. So I think there is a different interpretation of 
bipartisan support. I will yield back the balance of my time, 
Mr. Chairman, so some members can ask. Thank you.
    Chairman Berman. I thank the ranking member. We have been 
called for votes so we have about 8, 10 minutes here, and then 
I think we are going to have to end this. The gentlelady from 
California, Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. Here is a general 
question to any of you that would like to take a stab at it. 
What have we, or have we, learned lessons from our involvement 
in Iraq and Afghanistan, lessons that can be used regarding 
Yemen before we find ourselves sending troops and taking a 
position that may not fit with the rest of the world? Can we do 
something besides military involvement in Yemen early on by 
adopting a smarter security platform, like increasing 
development aid, debt relief? Do we have enough smart ways to 
try to offset what could happen? Because this is the world's, 
well, isn't it one of the world's poorest countries, if not, 
the? Can we support civil society programs, support women? How 
are women treated in Yemen? Don't start with that, start with 
my original earlier question. We will talk about women if we 
have time.
    Mr. Schanzer. I am happy to just address one or two points 
on that. In terms of what we have learned from Iraq, I think 
that the recent success, or relative success let us say, of the 
surge underscores the point that we really do need cooperation 
on the ground from various tribes and political leaders. I 
believe that it is something that we don't have at this point 
from Yemen. There needs to be a coalition of tribal leaders and 
elders who are willing to work with the United States, and 
Yemeni forces for that matter, to truly get to the heart of 
this terrorist problem.
    As for the nonmilitary solutions, we haven't heard much 
about this, but the Yemeni regime is an authoritarian one, and 
there is a lot of discomfort with that on the ground in Yemen. 
The fact that you have a President who has been in power since 
1978 and is now grooming his son to succeed him should not be 
lost in this committee. We need to start to see democratization 
take place in Yemen, and I think as that starts to happen, 
hopefully we will see a drop in militancy as well.
    Mr. Riedel. If I can address your question as well, I think 
there are actually many good news stories in Yemen. One of them 
is that, as Assistant Secretary Feltman said, there are 7,000 
civil society organizations in the country, many of them very, 
very active, very able to do the work. They are service 
delivery organizations, women's organizations, handicapped 
organizations, advocacy organizations. There are elected local 
councils, and I think with devolution of power, with 
decentralization, they can better address local concerns. I 
should also mention that tribal leaders in Yemen already have 
reached out to U.S. nongovernment organizations, like NDI, but 
also to the U.S. Government asking for help in terms of 
conciliation, getting service to their areas.
    They are not hostile in most cases, actually, to the U.S., 
and so you have an infrastructure to build dialogue with the 
tribes that does not require military assistance. On the 
question of women, Yemen is a very conservative country, it 
resembles the Gulf countries that way, but women vote. They 
have been elected both to local councils, hundreds and hundreds 
of them to the national Parliament. They are registered to vote 
in large numbers and quite assertive. A number of women have 
been cabinet ministers, ambassadors and so on. I don't want to 
gloss it over too much because there are many challenges, but 
Yemen has an underlying basis that makes it much more than just 
a poor, conservative country. It has much more potential.
    Mr. Riedel. If I could add a point. I think a lesson we 
have learned in Iraq and Afghanistan is our al-Qaeda enemy is 
very agile, very adaptive, they have a very strong learning 
curve, and we have to be just as agile and adaptive. We need to 
not be dragged into local conflicts which we become bogged down 
in, which become very, very costly for us. That means that the 
counterterrorism only or the military only approach is not the 
approach that is going to work. The kind of approach that you 
suggested of trying to build governance, reaching out, bringing 
in allies, getting others to be part of this is absolutely 
crucial. Going it alone, relying purely on troops on the ground 
is a strategy that doesn't work.
    Mr. Boucek. I would just add briefly that looking at 
nonmilitary solutions, there are things that we can do. 
Something that would be very helpful would be to help Yemen 
draft and implement effective counterterrorism legislation so 
that they could charge the people we would like charged, help 
train judges and lawyers to convict the people we would like to 
see convicted, help professionalize the police service so this 
cuts down on abuse, professionalize the prison service, so they 
stay in prison once they are incarcerated. I think there are 
things that we can do that are low cost and high impact in that 
way.
    Ms. Woolsey. I have 1 second so this is just a general 
question. Is it possible if the government is a dictatorship 
and doesn't want to help us?
    Chairman Berman. I think we will leave that question in the 
either. Gentleman from Indiana, Mr. Burton, is recognized.
    Mr. Burton. I will be quick because I know we have votes 
on. Let me just ask this question. First of all, I want to make 
a statement, and that is there is an organization called SERE, 
the Survival, Evasion, Rescue and Escape Training Program, and 
it has been used by all pilot Special Forces for generations, 
including the Navy SEALs. In that training program they use 
waterboarding. These are our troops that they train and they 
have been doing it for 30 years. So when they talk about 
waterboarding being torture, I think for the edification of my 
colleagues, they ought to take a good look at the training that 
our troops are going through, or have been going through, for 
at least 30 years. Now let me just ask this question. Yemen, 
Mr.--how do I pronounce your name?
    Mr. Schanzer. Schanzer.
    Mr. Burton. Schanzer. There have been two escapes from the 
prisons that you were talking about a while ago, and you also 
said that it is very rare that this takes place. Is the 
administration there in Yemen, in your opinion, complicit with 
somebody, maybe an al-Qaeda or other organizations, in allowing 
these people to escape? Would it be because of sympathetic 
views or because of financial reasons, if they are complicit?
    Mr. Schanzer. Well, if you are asking, sir, if at the 
highest levels of government, if they are cooperating with al-
Qaeda, I would say that the answer is no. I believe there have 
been more than two prison breaks. These are the two major ones, 
but there have been others as well. And these seem to 
underscore that the security apparatus has been infiltrated by 
jihadists, by al-Qaeda. So at the mid-level we are seeing some 
of that infiltration and cooperation and that largely stems, at 
least as I understand it, from tribal affiliations, and perhaps 
financial considerations as well.
    Mr. Burton. Well, how can the legal apparatus function 
there if you have got people who are in opposition to the 
positions the government is taking in incarcerating these 
people, how can that system even work? I mean, it seems to me 
that it is just wide open, and how can the United States work 
with a government like that that can't control the prison?
    Mr. Schanzer. Well, Representative Burton, this is exactly 
the point of my testimony. It is my assertion that Yemen has 
really failed to demonstrate how it is willing to accept the 
training and aid that we plan to give it in order to step up 
its counterterrorism efforts. We need to see, I think, very 
distinct milestones set by the Yemeni Government and an 
understanding of where they have been lacking to date, and how 
they plan to really take things in a new direction. In my 
estimation, they have really failed over the last decade.
    Since the USS Cole bombing they have learned very little. 
In fact, I would say they have actually gone backwards. So the 
question is, as we begin to engage with Yemen, I know we have 
been hearing lots of warm and wonderful things from the 
administration, but I would say that even if they have 
articulated a renewed interest, what we have seen is a record 
over the last 10 years of going backwards. This is of great 
concern to me and to the Foundation for Defense of Democracies.
    Mr. Burton. Well, the only other thing I was going to ask 
is you have made some comments about the Yemeni Government and 
how we should deal with them. It escapes me how we can work 
with them and give them all the money, the financial assistance 
we are giving them, and you say that they are going to have to 
solve the problems themselves because we can't start a third 
front in the world war against terrorism. If all these things 
are going on, how are we going to do that?
    Mr. Riedel. Consistency and constancy in our engagement, 
and having our eyes wide open about our partner. We have no 
delusions about Ali Abdullah Saleh and the people around him, 
but taking this problem over as an American problem is not the 
solution either. We don't have the resources to take it over as 
an American----
    Mr. Burton. Well, the only thing I will say, and I will end 
with this, it seems to me that if they are going to Yemen away 
from Pakistan and Afghanistan because of the heat that has been 
put on them there and we can't really do whatever is necessary 
to defeat them, we are going to give them sanctuary in a place 
and it is going to cause us more problems down the road. Thank 
you, Mr. Chairman.
    Mr. Riedel. I think, Mr. Congressman, we are putting heat 
on them now, and there are real results from some of these 
military actions by the Yemenis assisted by the United States. 
My suggestion is let us not take our eye off the ball 6 months 
from now when we think we have got the problem in a redactive 
mode. We have got to stay at this for a long time to come.
    Mr. Burton. Thank you. Thank you, Mr. Chairman.
    Chairman Berman. I am going to yield myself to ask a couple 
of questions and hopefully then get Mr. Scott into this. 
Schanzer says strict conditionality on our aid, Riedel says no 
boots on the ground. Riedel, what do you think of Schanzer's 
position on aid? Schanzer, what do you think of Riedel's 
position on boots on the ground?
    Mr. Riedel. If I could, Mr. Chairman, let me be clear. 
There may be places for Special Forces, there may be places for 
particular kinetic action. I am not ruling out any kind of 
military role, but not a large-scale Iraq or Afghanistan kind 
of operation.
    Chairman Berman. I understood that you were focused on 
that.
    Mr. Riedel. Okay. Conditionality is always a good idea. It 
is always very difficult when you are trying to entice the 
partner to work with you and how you go about that 
conditionality. Our experience with Yemen over 30 years, 
though, argues for a fair amount of conditionality.
    Mr. Schanzer. Mr. Chairman, I would actually say that I 
agree very much with what Mr. Riedel says. I think the idea of 
putting troops on the ground in significant numbers is ill-
advised. The idea of Special Forces working with the Yemenis is 
acceptable. I like the idea of continued predator drone 
attacks, hellfire missiles. Why that has stopped in recent 
years, I do not know. As I understand it, the Yemenis are 
uncomfortable projecting the fact that they are working with 
the United States. This is something that they don't want their 
population to be aware of. I would love to see that cooperation 
continue, and continued, you know, joint cooperation on other 
CT efforts as well.
    Chairman Berman. And then my final question. Your comment 
about Yemen and Hamas, you talk about a conservative regime. Is 
it conservative in the sense of Islamic fundamentalists, in the 
sense of Muslim brotherhood? Is that the appeal or is it more 
of a tactical kind of decision about who to ally with?
    Mr. Schanzer. Mr. Chairman, Yemen is a very complicated 
country, to be sure. The government has to appeal to various 
tribal elements, various political factions. The Islah Party, 
which is the Muslim Brotherhood offshoot, is a popular one in 
Yemen. I think that it was a tactical decision on the part of 
the President to figure out a way to support one jihadist 
movement. You have to remember, of course, that the Arab-
Israeli conflict, or let us say resistance against Israel, as 
they call it, is really the lowest common denominator in the 
Arab world. This does not excuse, in my opinion, what the 
President has done. But he has decided that this is the one 
thing that he can squarely get behind, and I think that this 
really demonstrates a great deal of inconsistency on the part 
of the Yemeni Government.
    Chairman Berman. Mr. Scott?
    Mr. Scott. Yes. Thank you very much, Mr. Chairman.
    Chairman Berman. Consistent with us making our vote.
    Mr. Scott. Absolutely. Do want to make this point, though, 
as I mentioned before, having just come from over there. Two 
points. One is there is a great sense of urgency that I think 
we may have even a greater sense of urgency. We have an 
immediate problem. Yemen is ground zero for the national 
security of our nation on the war on terror. It is not coming 
from Pakistan, I think, because we have the troop manifestation 
up there, but if you look at the past, the USS Cole, if you 
look at Fort Hood situation, if you look at the assassination 
situation, the Christmas Day underwear bomber, all come out of 
a situation in Yemen. There is a reason for that. Now, what I 
think is we have to have a dual track. We are sort of in a, not 
only in a box, but we are sort of in a straight jacket of a box 
we have got to get out of. I think, after going there and 
talking with our special operations people and our Navy SEALs, 
I think that needs to be the approach. We have got to find a 
way to cripple the operation of al-Qaeda in Yemen immediately 
to give the people in the United States some breathing room and 
to give us some help on our war on terror here. That is where 
the attacks are coming from, that is where it is. The other 
thing I wanted to say is that I think that there needs to be 
more emphasis on Yemen from the East Africa standpoint, from 
the Horn of Africa standpoint. From my visit there, Yemen has 
far more connectivity to East Africa, particularly the 
relationship between Somalia and Yemen. They feed one another. 
You have got the training camps for al-Qaeda in Yemen, but you 
have also got the training camps for al-Qaeda and al-Shabaab 
connected in Somalia. So those are the points I wanted to try 
to get out. I think it is very important for us to emphasize we 
have got to kill al-Qaeda in Yemen.
    Chairman Berman. As much as I would like to get your 
reaction to that, I think if we are going to make the vote, we 
better adjourn the hearing. Thank you all very much. Appreciate 
your being with us today.
    [Whereupon, at 2:36 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Mi
                               nutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Be
                               rman 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Pa
                               ul 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Wa
                               tson 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Pe
                               nce 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Ca
                               rnahan 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Co
                               nnolly 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Ja
                               ckson Lee 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Co
                               sta 
                               FTR deg.__
    Material Submitted for the Record by the Honorable Jim Costa, a 
        Representative in Congress from the State of California
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Ca
                               rnahan 
                               QFRs--
                               Feltman deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Ca
                               rnahan 
                               QFRs--
                               Boucek deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Ca
                               rnahan 
                               QFRs--
                               Schanzer deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Ca
                               rnahan 
                               QFRs--
                               Campbell deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Ca
                               rnahan 
                               QFRs--
                               Riedel deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Mc
                               Caul QFRs-
                               -Feltman deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Mc
                               Caul QFRs-
                               -Boucek deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Mc
                               Caul QFRs-
                               -Schanzer deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Mc
                               Caul QFRs-
                               -Campbell deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Mc
                               Caul QFRs-
                               -Riedel deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Le
                               e QFRs--
                               Feltman/
                               Godec deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Le
                               e QFRs--
                               Boucek deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Le
                               e QFRs--
                               Schanzer deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Le
                               e QFRs--
                               Campbell deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Le
                               e QFRs--
                               Riedel deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
